<html>
<title> - RUSSIAN BOUNTIES ON U.S. TROOPS: WHY HASN'T THE ADMINISTRATION RESPONDED?</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
    RUSSIAN BOUNTIES ON U.S. TROOPS: WHY HASN'T THE ADMINISTRATION 
                               RESPONDED?

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 9, 2020

                               __________

                           Serial No. 116-119

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        




       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                       
                             ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
41-240 PDF            WASHINGTON : 2020                        
                       
                       

                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey              CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          JOE WILSON, South Carolina
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts       TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada                   ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California                 FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota                KEN BUCK, Colorado
COLIN ALLRED, Texas                  RON WRIGHT, Texas
ANDY LEVIN, Michigan                 GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia         TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey           STEVE WATKINS, Kansas
DAVID TRONE, Maryland                MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas

                     Jason Steinbaum, Staff Director
                                    
               Brendan Shields, Republican Staff Director
                                    
                
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Morell, Michael, Former Acting Director and Deputy Director, 
  Central Intelligence Agency....................................  5, 7
Wallander, Dr. Celeste, Former Special Assistant to the President 
  and Senior Director for Russia/Central Asia, National Security 
  Council........................................................ 9, 11
Nicholson, General John W., (Retired), Former Commander of U.S. 
  Forces--Afghanistan and NATO's Resolute Support Mission........23, 25
Brzezinski, Ian, Former Deputy Assistant Secretary of Defense for 
  Europe and NATO, U.S. Department of Defense....................28, 30

                                APPENDIX

Hearing Notice...................................................    74
Hearing Minutes..................................................    75
Hearing Attendance...............................................    76

                        STATEMENT FOR THE RECORD

Statement for the record submitted from Representative Connelly..    77

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record from Chairman 
  Engel..........................................................    79
Responses to questions submitted for the record from 
  Representative Wagner..........................................    81


    RUSSIAN BOUNTIES ON U.S. TROOPS: WHY HASN'T THE ADMINISTRATION 
                               RESPONDED?

                         Thursday, July 9, 2020

                          House of Representatives,
                      Committee on Foreign Affairs,
                                                     Washington, DC

    The committee met, pursuant to notice, at 1:03 p.m., via 
WebEx, Hon. Joaquin Castro [acting chairman of the committee], 
presiding.
    Mr. Castro [presiding]. The Committee on Foreign Affairs 
will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any point, and all members will have 
5 days to submit statements, extraneous material, and questions 
for the record, subject to the length limitation in the rules. 
To insert something into the record, please have your staff 
email the previously mentioned address or contact full 
committee staff.
    Please keep your video function on at all times, even when 
you are not recognized by the chair. Members are responsible 
for muting and unmuting themselves, and please remember to mute 
yourself after you finish speaking. Consistent with House 
Resolution 965 and the accompanying regulations, staff will 
only mute members and witnesses as appropriate when they are 
not under recognition to eliminate background noise.
    I see that we have a quorum.
    And I will now recognize myself for opening remarks.
    We meet today to discuss reporting that Russia put bounties 
on the heads of American and allied troops, Russian cash 
pouring into the Taliban's coffers in exchange for American 
lives. While we are going to steer clear of discussing any 
classified information in this hearing, I think I am on safe 
ground to say that these allegations and claims were never 
denied by the White House. Russia's actions, if true, are 
unacceptable. The American people are demanding answers and 
they are demanding accountability.
    This hearing is also a reminder that America's longest war, 
now approaching nearly two decades of continued conflict, still 
wages on in Afghanistan. Bringing the 9/11 terrorists to 
justice was an imperative, but few would argue today that U.S. 
national security interests are being served by this endless 
war.
    Just this past week, a young soldier from my hometown of 
San Antonio died in a vehicle rollover accident, Vincent 
Sebastian Ibarria. He was 21 years old and dreamed of becoming 
a nurse after serving in the Army. I express my condolences to 
his family and to the more than 2,000 American families who 
lost a loved one during this conflict. We need to bring this 
endless war to a close.
    Today, this committee looks to answer an important foreign 
policy question: why has Russia faced no consequences, not even 
a public rebuke, from the Trump administration? We invited 
Secretary Pompeo to testify today. He refused, which is what we 
have come to expect from this Secretary of State. While he 
makes plenty of time for interviews on Fox News and seems to 
relish bullying fact-based journalists from the State 
Department press room, he rarely, if ever, summons the courage 
to answer questions from his former colleagues in the House of 
Representatives, as every other Secretary of State before him 
has done.
    Russia is not our friend. Vladimir Putin is not a partner 
of the United States. He is a dictator who just last week 
extended his tenure to 2036. He has robbed his people of their 
rights. He has trampled on the sovereignty of his neighbors. He 
has used the resources of the Russian government to undermine 
democracy, splinter NATO and the EU, and bolster other despots 
like Assad. His tools are disinformation, violent suppression, 
and assassination. All of that is contemptible enough, but 
putting a price on American heads is a serious escalation.
    Exactly how the intelligence on this matter was presented 
to the President is still unclear. The Trump administration's 
excuses keep changing. Perhaps it was within his briefing, but 
that does not necessarily mean the briefers briefed him on it, 
because it is widely known that President Trump does not read 
the Presidential Daily Briefing. Or maybe they did not brief 
him because the intelligence was, quote-unquote, ``disputed,'' 
even though only intelligence that is of major significance 
makes it into the Presidential Daily Briefing. Per usual with 
President Trump, we are a long, long way from the buck stops 
here.
    Even if the administration's explanations are true, it 
paints a picture of incompetence at the highest levels of our 
national security apparatus. But what troubles me the most from 
a foreign policy perspective is what this White House did and 
did not do once it received this information. Was there a 
public condemnation of Russia and Vladimir Putin from the Trump 
administration? Did the State and Treasury Departments slap 
sanctions on Russian officials involved in the plot? Did the 
Taliban, with whom we have been at war for nearly two decades, 
pay a price? What are the State and Defense Departments doing 
to protect our service members and how are they working with 
our NATO allies who are contributing to the Resolute Support 
Mission in Afghanistan with us to address this threat? None of 
that. As a matter of fact, this President kept doing what he 
has been doing since even before he was elected, cozying up to 
Vladimir Putin.
    Since the United States reportedly obtained this 
intelligence, President Trump has released a joint statement 
with Vladimir Putin, directed the purchase of faulty Russian 
ventilators, and withdrew from the Open Skies Treaty, a 
critical part of monitoring Russian military activity. He also 
ordered the reduction of America's troop presence in Germany, 
an act that was met with bipartisan rebuke and criticism from 
our allies, but with praise from the Russians. He even wanted 
to expand the G-7 to include Russia again, which was expelled 
from the group in 2014 following Putin's illegal annexation of 
Crimea. It is almost as if President Trump is on a mission to 
make Russia great again.
    This issue is also not without precedent. In 2011, the 
Obama Administration discovered that Pakistani intelligence 
officers urged Taliban-affiliated militants to attack the U.S. 
embassy and a NATO headquarters in Kabul. How did the Obama 
Administration respond? Secretary Clinton and the Chairman of 
the Joint Chiefs, Mike Mullen, confronted Pakistani officials 
and publicly shamed them for these actions, even though we were 
relying on Pakistan for certain access into Afghanistan. 
Admiral Mullen called the Haqqani Network a ``veritable arm of 
Pakistani's intelligence agency.'' White House officials stood 
up for Americans and the troops who were in harm's way.
    The way this administration tries to distort reality and 
gaslight the American people is, frankly, a page right out of 
Vladimir Putin's playbook. But the facts are clear. The Trump 
administration failed in its most sacred duty, to keep 
Americans safe.
    I hope that our witnesses can help us navigate all of this 
today and provide some ideas and insight about what our policy 
should look like under these circumstances. But, before I turn 
to the witnesses, I want to recognize Ranking Member Mike 
McCaul of Texas for his opening remarks.
    Mr. McCaul. Thank you, Mr. Chairman. I hope everybody can 
hear me okay. Thank you for calling this important hearing.
    As I have said time and time again--and I agree with the 
chairman that Vladimir Putin is not our friend, not a friend to 
the United States or our allies. In the past few years, we have 
witnessed his regime invade and occupy parts of Ukraine and 
Georgia, unleash devastating cyber attacks against our allies, 
use a banned nerve agent to try to kill a former Russian spy in 
the UK, prop up corrupt regimes in Syria and Venezuela. They 
meddled in our elections. They undermine American interests 
around the world. He has proven he just cannot be trusted and 
he certainly is not our friend.
    And now, we are faced with widely reported allegations that 
a Russian military intelligence unit, the GRU, has paid 
Taliban-linked militants to kill Americans and coalition forces 
in Afghanistan. While it is not news that Moscow has provided 
the Taliban with weapons and other support--and they have been 
there since 1979--now Russia paying bounties for the murder of 
American service members would be an unacceptable escalation. 
If true, the administration, in my judgment, must take swift 
and serious action to hold the Putin regime accountable, and 
that should include not inviting Russia to rejoin the G-7.
    We have passed, Mr. Chairman, as you know, sanctions that 
the administration can enact today on these Russian entities. 
Ultimately, there is nothing more important than protecting our 
American troops serving overseas. I think we can all agree we 
must take any threat to their safety seriously, especially from 
someone with a track record like Putin.
    I hope we use our time today to discuss how to more 
effectively deal with the dangerous autocrat in the Kremlin 
rather than descending into a partisan blame game. The only 
person who benefits from American infighting over this issue is 
Vladimir Putin. He loves chaos. And after last week's sham 
nationwide vote in Russia that allows Putin to remain in power 
through 2036, essentially, making him the emperor of Russia, it 
is even more critical for Americans to work together with our 
allies, especially through NATO, to counter Putin's nefarious 
activities around the world.
    While the topic of this hearing will certainly center 
around Russia and Vladimir Putin, the backdrop is Afghanistan. 
I urge my colleagues to continue supporting our partners in 
Afghanistan to help bring peace and stability to their country.
    My friend, Ambassador Rahmani, has devoted herself to 
helping secure that future for Afghanistan, and I want to take 
this opportunity to thank her for her unwavering dedication to 
that mission. And I think it is very commendable that 
Afghanistan appoint a female Ambassador to the United States, 
and I hope that she will be made a part of the negotiating team 
when they meet with the Taliban.
    I would also like to note that I appreciate the White House 
quickly providing briefings on today's topic on both sides of 
the aisle, including myself, the chairman, and other members of 
the committee. And further, I know my colleagues want to get 
the full story. So, I would encourage them to read all the 
classified materials provided on this important matter to get 
the entire picture.
    And so, finally, I would like to thank you, Mr. Chairman, 
and our witnesses for their testimony. And with that, I yield 
back.
    Mr. Castro. Thank you, Ranking Member McCaul.
    I am now going to introduce the witnesses who will testify 
to us.
    Our first witness is Mr. Michael Morell, former Acting 
Director and Deputy Director of the Central Intelligence 
Agency. He is one of our Nation's leading national security 
professionals and has been at the center of the Nation's fight 
against terrorism. He has worked to prevent the proliferation 
of weapons of mass destruction and efforts to counter U.S. 
adversaries like Russia and China. He also was previously in 
charge of organizing the President's Daily Briefing under 
President George W. Bush.
    Our next witness is Dr. Celeste Wallander, former Special 
Assistant to the President and Senior Director for Russia/
Central Asia on the National Security Council. She is a leading 
expert on Russian foreign policy, security, defense, and 
military affairs, and is the current president and CEO of the 
U.S. Russia Foundation. Previously, Dr. Wallander also served 
as Deputy Assistant Secretary of Defense for Russia, Ukraine, 
and Eurasia at the Department of Defense, and was a professor 
at American University.
    After her will be our witness General John Nicholson, a 
retired U.S. Army general and the former commander of the 
Afghan war effort, having led the 41-nation, NATO-led Resolute 
Support Mission and the United States Forces Afghanistan for 
more than two and a half years. His total U.S. Army career 
spanned over 36 years, with more than 12 of those years being 
spent at various NATO commands. He also serves as an adjunct 
faculty member on leadership with Harvard University's John F. 
Kennedy School of Government, and is a member of Harvard's 
Belfer Center Elbe Group, which sustains Track 2 dialog between 
retired American and Russian senior officials for military and 
intelligence background.
    And last, but not least, we have Mr. Ian Brzezinski, former 
Deputy Assistant Secretary of Defense for Europe and NATO and 
national security affairs staffer in the Senate. Mr. Brzezinski 
is a leading expert on Europe and NATO with more than three 
decades of experience and government service. He is a senior 
fellow at the Atlantic Council's Brent Scowcroft Center on 
Strategy and Security and the Council's Future Europe 
Initiative.
    Thank you all for being here. I will now recognize each 
witness for 5 minutes. And without objection, your prepared 
written statements will be made part of the record.
    Mr. Morell.

STATEMENT OF MICHAEL MORELL, FORMER ACTING DIRECTOR AND DEPUTY 
             DIRECTOR, CENTRAL INTELLIGENCE AGENCY

    Mr. Morell. Chairman Castro, Ranking Member McCaul, and 
members of this distinguished committee, good afternoon. It is 
an honor for me to be here with you today, and it is also an 
honor for me to testify alongside my distinguished panelists.
    Chairman, for the sake of time, I am going to summarize the 
written testimony that I submitted to the committee. What I 
want to focus on is what I know, which is how the collection, 
dissemination, and analytic processes of the intelligence 
community work; how the PDB process works; how the policy 
process on something like this would have worked at senior 
levels of the Bush and the Obama Administrations in which I 
spent much time in the Situation Room. So, with that in mind, I 
want to make eight points.
    One, there is a misperception about who receives raw 
intelligence. Many assume that it only goes to intelligence 
community analysts who decide what to share, and in what 
context, with intelligence consumers. That perception is not 
accurate. Raw intelligence gets disseminated widely--to 
intelligence analysts, yes, but also to warfighters in the 
field and at the Pentagon, the policymakers at the State 
Department and the Defense Department, as well as to senior 
White House officials via the White House Situation Room. The 
important point here is that many people would have already 
seen the raw intelligence as the analysts were just beginning 
their work on it.
    Two, a key question with regard to the raw intelligence is 
whether it was clear to a reader what might be happening--that 
is, what the Russians might be doing with these bounties--or if 
it was possible to only see that by connecting a number of 
dots. I do not know what the case was here. But, even if it was 
only vaguely clear from the raw intelligence that the Russians 
might be paying bounties for the killing of American soldiers, 
that information would have made its way to the highest levels 
of the U.S. Government, including the President, before the 
analysts concluded their work.
    Three, the lead IC agencies in assessing the information 
would have been the Central Intelligence Agency, the Defense 
Intelligence Agency, and the National Counterterrorism Center, 
for reasons that I outlined in my written testimony. The 
analysts would assess the information and they would come to 
two separate judgments. One, whether or not they believed 
Moscow was offering the bounties, and if they believed that, 
No. 2, their level of confidence in that judgment--low, medium, 
or high.
    Four, if the analysts believed at any level of confidence 
that the Russians were providing the bounties, that judgment 
would be presented in the PDB. If the President does not read 
the PDB--and not all Presidents have--then it would have been 
briefed to him, if not by the President's briefer, then by the 
Director of National Intelligence or the Director of CIA, or 
even those senior administration officials who were aware of 
it, such as the National Security Advisor, the White House 
Chief of Staff, or the Vice President.
    Five, contrary to what has been said by some, a dissent 
within the intelligence community on either the judgment itself 
or on the confidence level would not keep the piece out of the 
PDB. Rather, the dissent would be noted in the PDB piece.
    Six, once the piece was in the PDB, the IC leadership on 
something of this significance would brief Congress as early as 
the same day as the piece ran in the PDB and certainly no later 
than the next day.
    Seven, if the intelligence community assessed that the 
Russians were providing the bounties at any level of 
confidence, that would kick off a policy process inside the NSC 
staff on how the U.S. should respond. The analysts' level of 
confidence would make a difference to that process. A medium to 
high level of confidence would lead to a policy decision, I 
believe, on how to respond, while a low level of confidence 
would result in a decision that more intelligence was necessary 
before a policy decision could be made. I will leave it to 
General Nicholson to explain how the warfighters in Afghanistan 
would have reacted to the information and to the analysis at 
any level of confidence.
    Eight, and finally, a medium-to-high-level confidence 
judgment that the Russians were offering the bounties would in 
every administration that I worked in--and I worked in six--
have resulted in some sort of policy action designed to deter 
the Russians going forward. The safety of our troops would have 
required it.
    Mr. Chairman, let me stop there, and I look forward to 
answering the committee's questions.
    [The prepared statement of Mr. Morell follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    Mr. Castro. Thank you, Mr. Morell.
    I will now go to Dr. Wallander.

STATEMENT OF CELESTE WALLANDER FORMER SPECIAL ASSISTANT TO THE 
PRESIDENT AND SENIOR DIRECTOR FOR RUSSIA/CENTRAL ASIA, NATIONAL 
                        SECURITY COUNCIL

    Dr. Wallander. Thank you. I thank the committee members for 
the invitation to contribute to your work. Today, I will 
summarize my written testimony, and for purposes of today's 
discussion, I will assume that the publicly reported details of 
the intelligence assessment are accurate.
    These operations are embedded in a nearly decade-long 
Russian campaign of strategic competition that aims to weaken 
the United States and advance Russian power and influence. The 
Russian leadership recognizes that, while it is a peer to the 
United States in strategic nuclear capabilities, it does not 
match the United States in global power projection and in 
conventional military capabilities.
    Russia seeks to compete where it has advantages in the 
asymmetric terrain and to avoid competition that could lead to 
its failure. Russia has invested in tools and methods to 
asymmetrically counter American advantages, whether those lie 
in extremist lies and social media, limited military 
interventions in Ukraine and Syria, cyber intrusions in 
networks and infrastructure abroad, or interfering in American 
and European politics.
    Russia also deploys asymmetric tools to deny 
responsibility, however implausible that deniability has 
proven, in order to be able to operate with impunity and 
exploit ambiguities. This takes place in the phase zero end of 
the conflict spectrum, the sub-military conflict strategic 
environment in which diplomatic, informational, political, and 
economic conditions shape a country's capacity to secure its 
interests, short of active military confrontation.
    The concept is not unique to Russian security doctrine, but 
its centrality and asymmetric nature is distinctive in Russian 
doctrine and operations. Russian asymmetric phase zero 
operations are conducted not only by political, but also 
Russian military actors, primarily Russian military 
intelligence, the GRU, and quasi-private actors such as the 
Wagner Group.
    The earliest stages of operations in Ukraine in March 2014, 
political protests, were managed by GRU agents. The Russian 
operation to influence the U.S. 2016 Presidential election was 
a classic phase zero shaping operation, a mix of friendly 
foreign (WikiLeaks); quasi-private (Internet Research Agency); 
non-military; (the FSB), and Russian military actors.
    The asymmetric phase zero framework helps to explain why 
the GRU has surfaced in a number of operations in Europe, the 
U.S., and now in Afghanistan. Across all of these cases, GRU 
operations are ambitious and sloppy. It is unlikely that 
President Putin personally approves every GRU operation. Yet, 
the GRU continues to operate, despite being exposed. This means 
that there is no question that it operates with political cover 
and approval at the highest levels of the Russian leadership, 
which is, therefore, responsible for these operations.
    Why would the Russian leadership allow the GRU to play such 
a dangerous game? Because Russia has for years successfully 
managed asymmetric operations to keep the competition in 
spheres where it has operational advantages. It has exploited 
implausible deniability to operate in the asymmetric phase zero 
spectrum with impunity. Russia is succeeding.
    In this specific case, it may be that Russia assessed that 
the Taliban was insufficiently active in striking coalition 
forces and needed incentives in order to hasten U.S. failure 
and withdrawal. It might be that Russia sought to complicate 
the U.S.-Taliban relationship. Whatever the strange reasoning 
may have been, this crosses a threshold. Russia is seeking to 
exploit implausibly deniable asymmetric operations now directly 
against U.S. military forces.
    The Russian government has gotten away with its phase zero 
operations because we are not well equipped to compete in the 
asymmetric space, because we tend to view these operations as 
political, not security competition, and because we have all 
allowed the implausibly deniable to be denied and explained 
away.
    The result has been a creeping escalation and exploitation 
of asymmetric operations that thwart effective U.S. response. 
Caution is warranted. The other end of the conflict spectrum is 
mutually assured destruction. But caution does not require 
paralysis. The United States should build defenses against 
these operations, it should disrupt these operations, and it 
should directly hold the Russian leadership accountable at the 
military, political, and top level of leadership. If we do not 
defend ourselves, if we do not disrupt these Russian 
operations, and we do not hold the Russian leadership 
accountable, it will continue and they may continue to 
escalate.
    Thank you for your time, and I look forward to your 
questions.
    [The prepared statement of Dr. Wallander follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
    Mr. Castro. Thank you, Dr. Wallander.
    We will next go to General Nicholson. General.

   STATEMENT OF GENERAL JOHN W. NICHOLSON (RETIRED), FORMER 
   COMMANDER OF U.S. FORCES--AFGHANISTAN AND NATO'S RESOLUTE 
                        SUPPORT MISSION

    General Nicholson. Thank you, Chairman, and thank you, 
Ranking Member, for the honor to appear before this committee. 
And it is also a pleasure to be alongside such distinguished 
colleagues. I will summarize some of the major points from my 
written submission.
    History tells us that miscalculations and mistakes are what 
leads to war. And, of course, they are especially dangerous 
with respect to the United States and Russia because of our 
substantial nuclear arsenals. And if, indeed, they did this, 
this will be a serious miscalculation and a serious mistake.
    As we know, there were periods of shared interest and some 
cooperation in Afghanistan. Up through 2012, logistical 
cooperation through the Northern Distribution Network was a 
positive aspect of our relationship with Russia. But, after 
2014, that changed with the annexation of Crimea, the invasion 
of Ukraine, the threats to the eastern States of the NATO 
alliance. Within NATO where I was the Allied Land Commander at 
the time, we began drawing up defensive plans for the first 
time in the 25 years since the end of the cold war. When I 
moved from Turkey to Afghanistan in 2016, by that time, the 
Russians had intervened in Syria and, of course, we saw a major 
focus by the United States on ISIS and Syria.
    But, at that time also, we saw a modest increase in 
capabilities by the Russians in Central Asia. And, of course, 
we discussed this up our chain of command and through 
intelligence and military channels. Myself, General Votel, 
General Scaparrotti, Secretary Mattis, all addressed this 
publicly. And let me go a little bit into that because it ties 
into what the other witnesses are referring to.
    What we saw was a pattern that they had used in Crimea, 
Ukraine, the Baltics, and Syria of using military exercises as 
a way to move capabilities and people into an area and, then, 
leave some behind. This would desensitize us to their presence. 
It would generate options for them. And obviously, it would 
reduce our warning times, should they choose to use these 
capabilities. This slow, gradual buildup, while we were focused 
primarily on Syria, was of concern enough to me as commander 
that we highlighted this and, eventually, called them out.
    At this same time, they were arming and equipping and 
giving money to the Taliban. Now it was in modest quantities. 
It was not designed to be a game changer on the battlefield. 
For example, the Taliban wanted surface-to-air missiles; the 
Russians did not give them to them. So, I always concluded that 
their support to the Taliban was calibrated in some sense. But 
just because it was calibrated does not mean that it was not 
important and it did not cause us difficulties. In the northern 
part of Afghanistan, in particular, in Kunduz, this Russian 
assistance did help the Taliban to inflict higher casualties on 
the Afghan Security Forces and more hardship on the Afghan 
people.
    Despite all of this, I was somewhat surprised to read the 
reports of Russian involvement in bounties because this is so 
risky and irresponsible that it would mark a departure from 
this previously calibrated approach. And, of course, the layers 
of complexity inside the Russian decisionmaking process and 
inside Afghanistan are baffling even to those who know these 
areas deeply. But, if this is validated, regardless of who made 
this decision and whether it was made in Moscow or made in the 
field, regardless of whether Russian leaders were complicit 
directly or they were merely incompetent in their failure to 
control operations, they are still responsible. It is also 
important to note that there were two sides of this 
transaction: the Russians offered and the Taliban accepted. And 
this is in direct contradiction to the spirit and the letter of 
the Afghan peace agreement.
    So, if we assess that Russia put bounties on Americans and 
coalition members, then what should we do about it?
    No. 1, we need to condemn this action from the highest 
levels of the U.S. Government and NATO, so that the Russians 
understand it is unacceptable.
    Two, with respect to Russia, we should suspend any troop 
withdrawals from Germany. These troop withdrawals play into 
Russian desires to undermine and weaken NATO. If carried out 
despite these bounties, this will be viewed as a sign of 
American weakness in the face of Russian threats.
    Three, with respect to the Taliban, we should hold on our 
troop drawdown in Afghanistan at the present level until the 
Taliban have met the conditions that they agreed to in the 
peace agreement. We have delivered on our part by drawing down 
to 8600 ahead of schedule. The Taliban needs to deliver on 
theirs. And this includes severing ties with Al Qaeda, 
reentering Afghan peace negotiations, and a sustained reduction 
in violence.
    Our long war in Afghanistan is only going to end at the 
peace table, and as leaders, we all have a moral responsibility 
to do everything in our power to protect our service members 
who are fighting for an enduring peace in Afghanistan and to 
deliver on the sacrifice of the Americans, the coalition 
members, and the Afghans who came before them.
    Thank you very much, Mr. Chairman. I look forward to your 
questions.
    [The prepared statement of General Nicholson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Castro. Thank you, General.
    Mr. Brzezinski.
    I think you may be on mute. There you go.

STATEMENT OF IAN BRZEZINSKI, FORMER DEPUTY ASSISTANT SECRETARY 
   OF DEFENSE FOR EUROPE AND NATO, U.S. DEPARTMENT OF DEFENSE

    Mr. Brzezinski. Mr. Chairman, can you hear me now?
    Mr. Castro. Yes.
    Mr. Brzezinski. Thank you.
    Chairman Castro, Ranking Member McCaul, distinguished 
members of the committee, Americans are rightly outraged by 
reports of Russia placing bounties on U.S. military personnel 
in Afghanistan. These reports, as heinous as they are, 
underscore a broader challenge confronting the West: Russia's 
pattern of escalating aggressive international conduct.
    Over the last decade and a half, Moscow has applied the 
full suite of Russian power to dominate its neighbors, create 
division in the West, and position Russia as a global power. 
The suite of tools has included military and paramilitary 
forces, economic and energy embargoes, assassination and 
political subterfuge, information and cyber warfare, separatist 
groups, and frozen conflicts. That campaign history includes a 
2007 cyber attack on Estonia, the 2008 invasion of Georgia, the 
2014 invasion of Ukraine, the 2016 coup attempt in Montenegro, 
assassinations in the United Kingdom, Germany, just last week 
in Austria, and elsewhere.
    As the committee has documented, Russia has meddled not 
only in the elections of our allies, but even in our own 
elections. This willingness to directly attack the United 
States took a kinetic dimension in Syria in 2018. There, 
Russian paramilitary units attacked outposts known to be manned 
by U.S. Special Operations Forces. In light of all this, recent 
reports of Russia's bounties on American soldiers are 
disturbingly consistent with what has been a steady escalation 
of Russian international interference and aggression.
    Now, over the past decade and a half of this, the West's 
response, including that of the United States, to Russia's 
assertiveness has consisted of limited incremental escalations 
of economic sanctions and military deployments, complemented by 
half-hearted and short-lived diplomatic isolation. This 
incrementalism conveys hesitancy and a lack of unity and 
determination on behalf of the United States and the Western 
alliance. It has failed to convince Putin to reverse course and 
it may have actually emboldened him. Continued incrementalism 
not only promises continued confrontation with Russia, it 
increases the risk of conflict, both intentional and 
unintentional.
    U.S. strategy regarding Putin's Russia needs to be 
calibrated to this reality. Properly calibrated engagement 
entails exploring avenues through which to modulate tension and 
foster collaboration. But it also requires more immediate and 
stronger measures to deter and counter Russian aggression and 
provocation. Toward those ends, U.S. strategy should include 
the following priorities:
    First, we need to increase NATO's readiness for high-
intensity conflict. Russia's military modernization efforts and 
its concentration of forces on its western frontier have 
increased the risk of conflict in Europe. This reality, of 
course, underscores the need for our NATO allies to continue 
increasing their military capability and readiness. But there 
is more the U.S. can and should do. We should transition the 
U.S. Armored Brigade Combat Team in Poland and related elements 
to a permanent presence. The U.S. should also permanently 
station in the Baltics a Special Forces contingent. President 
Trump should reconsider his decision to withdraw U.S. forces in 
Germany. Removing forces from Europe weakens our deterrent 
posture in. Europe at a time when the threat from Russia is 
increasing. It signals a lack of commitment to European 
security that President Putin will surely relish.
    Second, we need to more robustly support the transatlantic 
aspirations of Georgia and Ukraine. NATO enlargement expanded 
the zone of peace and security in Europe and strengthened the 
alliance's military capability. Both Ukraine and Georgia should 
be provided a clear path to NATO membership. Perpetuating their 
position in a zone of geopolitical ambiguity only animates 
Putin's appetite and sense of opportunity to reassert dominion 
over these two democracies.
    Third, we need to more effectively counter Russia's 
dissemination of false information. In this realm, the United 
States essentially disarmed itself when it closed the doors in 
1999 of the United States Information Agency. This multibillion 
agency was our frontline force on the information front. 
Congress should reestablish or establish a modernized version 
of USIA, so that the United States can return to the offense in 
this dynamic and fast-paced dimension of international affairs.
    Fourth, we should increase economic sanctions on Russia. 
Today's sanctions may impair the Russian economy, but if their 
intended outcome has been to deter Russian aggression, they 
have failed by that measure. Sanctions should be escalated from 
measures primarily aimed against specific Russian individuals 
and firms to more comprehensive sectoral sanctions against 
Russian financial and energy sectors.
    Finally, we need to strengthen Western cohesion and unity. 
These aforementioned actions will only be fully effective if 
they are complemented by unity and purpose in action within the 
transatlantic community.
    So, Mr. Chairman, Ranking Member McCaul, as you and the 
committee address the intelligence regarding Russian bounties, 
I urge you to also assess the effectiveness of U.S. policy in 
terms of deterring, countering, and containing the full 
spectrum of Moscow's malign ambitions and actions. When it 
comes to Russia, time is long overdue for an unequivocal U.S. 
policy.
    Thank you, sir.
    [The prepared statement of Mr. Brzezinski follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
    Mr. Castro. Thank you, Mr. Brzezinski, and thank you to all 
the witnesses for your testimoneys.
    I will now recognize members for 5 minutes each. And 
pursuant to House rules, all time yielded is for the purposes 
of questioning our witnesses. Because of the virtual format of 
this hearing, I will recognize members by committee seniority, 
alternating between Democrats and Republicans. If you miss your 
turn, please let our staff know and we will come back to you. 
If you seek recognition, you must unmute your microphone and 
address the chair verbally. And as we start questioning, I will 
start by recognizing myself.
    I want to ask a question of Mr. Morell first. In instances 
where the Russians paid to have American service members 
killed, and it appears from press accounts, at least some press 
accounts, that the Russian plot results in American deaths, in 
your experience as somebody who carried out the Presidential 
Daily Briefing, is this something that intelligent briefers 
would make the President aware of?
    Mr. Morell. Yes, sir, without a doubt.
    Mr. Castro. Is there anyone on the panel, based on your own 
expertise, who believes that the President would not have been 
made aware of this information? Anyone?
    [No response.]
    No one? Thank you.
    In the event that the President's advisors really withheld 
such alarming intelligence from him, even as he made continuous 
concessions to Russia, who would ultimately be responsible for 
such process failures, mid-level career civil servants or 
administration leadership? And I ask that of anyone on the 
panel. If, for example, the intelligence was somehow not 
provided to him, then where does the failure lie?
    Mr. Morell. Congressman, maybe I can jump in here, having 
been in the Oval Office every morning with President Bush for a 
year and, then, many times with President Obama. If the 
President's briefer did not raise something of such importance, 
then I believe it falls on whoever else is there from the 
intelligence community, the DNI or the Director of CIA. And 
barring their failure to raise such information, I think it 
falls on the responsibility of the National Security Advisor to 
make absolutely certain the President knows.
    Mr. Castro. Okay.
    Dr. Wallander. Could I add to Mike's point?
    Mr. Castro. Sure.
    Dr. Wallander. Which is that every morning in the Obama 
White House, among the duties of the senior directors was to 
read the PDBs in advance of the presentation of the PDB to the 
President by the briefers, and to provide for the National 
Security Advisor--in our case, Susan Rice--advice and context, 
because she would go in and be part of that briefing and be 
ready to make sure that, as Mike pointed out, the briefing had 
been received and correctly understood by the White House 
leadership.
    Mr. Castro. Okay. And we have about 2 minutes left on my 
questioning.
    Some of you in your remarks, your testimony, suggested 
different courses of action, different responses that the 
United States could take. I want to ask you this question: so 
far, as I mentioned in my remarks, there has been not even a 
public condemnation by the President or the White House against 
Russia for these reported actions. Let me ask you this--and we 
only have about a minute and 45 seconds--what is the cost of 
the United States not even saying a word to Russia about these 
reported actions?
    Mr. Morell. Congressman, let me jump in here again. I did 
not make any recommendations about what steps the U.S. should 
take, but I think it is really important that we all recognize 
something about Vladimir Putin's personality. He is a risk-
taker. And when he takes a risk and he succeeds in his mind, he 
is often willing to take even larger risks in the future. So, 
the failure for him to face any cost here I think significantly 
increases the chances of him doing something else to undermine 
the United States, possibly even larger than what we have seen 
in this case.
    Mr. Brzezinski. Mr. Chairman?
    Mr. Castro. Yes, Mr. Brzezinski?
    Mr. Brzezinski. Allow me to complement Director Morell's 
point. When we do push back on Putin and push back firmly, he 
does respond. He is ultimately a pragmatist. And as Dr. 
Wallander pointed out, he picks his battles carefully.
    When looking back to Russia's invasion on Georgia in 2008, 
the turning point of that conflict occurred when the United 
States demonstrated some military muscle. The United States 
flew back Georgian soldiers to their capital, Tbilisi via a 
military cargo plane right in the middle of that conflict, 
demonstrating, readiness to take sacrifices, basically Putin 
with the risk of a direct military confrontation with the 
United States. And that was basically the turning point of that 
invasion. That action convinced Putin to end that invasion.
    So, if we are more forceful, if we are more firm, we do 
have very good prospects of actually restraining Putin's 
actions and ambitions.
    Mr. Castro. Thank you, Mr. Brzezinski.
    And I am going to keep myself on time on the questioning. 
So, I will go over to Ranking Member Mike McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    Let me just, without commenting on the specifics of the 
intelligence, there was a very strong dissent. The briefer was 
a career intelligence officer that made this decision not to 
brief. And I guess the question is whether it is actionable 
intelligence.
    Having said that, I think the nature of this intelligence 
being targeted at U.S. troops would be a significant departure 
for Russia in its dealings with the Taliban. Now I personally 
think that the President deserved to at least know about this. 
I think, if true--and I know that the intelligence community is 
going back and doing a deep dive--I do think Russia should be 
condemned and the GRU should be sanctioned, as we have 
authorized by Congress.
    My first question is to General Nicholson. You have been in 
Afghanistan for quite some time. And let me say, all the 
panelists are very, very impressive with your testimony. I 
think this calls into question the good faith of the Taliban. I 
do think, though, since the peace plan has been entered into, 
there have been no Americans targeted, although they are 
targeting Afghan nationals.
    Can you tell me, No. 1, how significant of a departure this 
would be? Because we know they are arming and giving cash to 
the Taliban to kill ISIS, but this would be a different policy 
change to target American troops. And second, does it call into 
question the good-faith negotiating of the Taliban?
    General Nicholson. Thank you, Ranking Member McCaul.
    I do think it calls into question the good faith of the 
Taliban. There are two parts to this transaction, again, if 
validated. But we do know that the Russians have provided small 
arms, ammunition, money to the Taliban, and have been doing it 
for some time. And frankly, the ability to direct that and 
control it, and where it is used and where it is not used, is 
extremely limited. Once it is turned over to them, they will 
use it as they see fit.
    And I have no doubt that some of that was used in the 
northern part of Afghanistan against Afghan units with American 
advisors, especially in the Kunduz area. And so, I think that, 
in this sense, now specifically offering bounties is a small 
step from what they were already doing. Their justification for 
this action was the fight against ISIS, but part of this was, 
as the other witnesses have mentioned, a false narrative and 
misinformation on the part of Russia that the United States was 
supporting ISIS.
    So, I think that this does call into question the Taliban's 
commitment to the agreement. As I mentioned in my statement, 
they need to sever ties with Al Qaeda; there should be a 
sustained reduction in violence, and they need to begin the 
peace talks that they are committed to do on----
    Mr. McCaul. If I could reclaim my limited time, I note that 
Ambassador Rahmani, Afghanistan, our Special Envoy, they are 
having discussions this week about a humanitarian cease-fire. 
My concern is all the good work that you have done over there, 
if the Taliban overruns Afghanistan and takes over, then we 
have a safe haven for many years to come.
    How do you view the peace plan moving forward? I always 
believe, whether it is Syria or Iraq, we need a residual force, 
if anything, to protect the homeland. What are your thoughts on 
force reduction?
    General Nicholson. I think that this level of 8600, we 
should hold there until the Taliban delivers on their portion 
of the peace agreement and we move to the next stage. So, I do 
think that is important. I do think there is a threat from the 
region in terms of the multitude of terrorist groups that are 
over there. We have over 20 designated groups, U.S.-designated 
groups, in the region. And I think that, with the government in 
Afghanistan, we should consider, if they ask us to stay and 
request our help to keep pressure on these groups, it is 
definitely something we should consider.
    Mr. McCaul. I can tell you from the Ambassador they do.
    Let me ask real quickly, Secretary Brzezinski, the 
President's decision in Germany, I sent a letter with Adam 
Kinzinger saying this sends a bad message to NATO forces, to 
Putin, CENTCOM, AFRICOM. However, if they move some of these 
forces as they talked about, the National Security Advisor, to 
Poland and the Baltic nations, describe to me how that would 
work, and would that be an even better strategy?
    Mr. Brzezinski. It would be better than pulling the forces 
back from Germany to the United States. But I do not think we 
ought to be punishing Germany to the benefit of Poland. We need 
a robust presence in Poland and we have one now, which I think 
is an appropriate level. I would make it more permanent. But 
that is a frontline presence. You want your rearguard, your 
rear echelons, to also be robust. We need a robust presence in 
Germany, so not only we can reinforce the Baltics, we can also 
reinforce southern Europe. And then, of course, we need a 
robust presence in Germany if we want to have a robust military 
relationship with the Germans and other militaries of the NATO 
alliance.
    So, this decision by the President is undercutting not only 
our relationship with Germany, it is undercutting our 
operational efficiency to reinforce our frontline forces in 
Poland and frontline operations in the Baltics. So, this is a 
potential, if it gets executed, a real setback, a weakening of 
our deterrent posture in Europe.
    Mr. McCaul. I have talked to the Ambassadors in the Baltic 
States and Poland, and they would, obviously, very much welcome 
our presence there.
    And I know, Mr. Chairman, my time has expired. You have 
been very generous.
    I want to thank the witnesses for their testimony.
    Mr. Castro. Thank you, Ranking Member McCaul.
    We will go to Congressman Brad Sherman.
    Mr. Sherman. Thank you.
    I want to thank our witnesses for coming before us, but the 
loudest testimony is being given by the witness who did not 
show up. Secretary Pompeo was invited and strongly urged to 
come before us, and his refusal to do so shouts loudly that the 
process for decisionmaking on foreign policy and the outcome of 
the decisionmaking in this White House is indefensible.
    We have a situation where Russia attacks Georgia, the 
Ukraine, interferes in Syria, interferes in elections in the 
United States, interferes in Montenegro, occupies eastern 
Ukraine and the Crimea, and according to Secretary Pompeo, when 
he speaks, but, of course, not to our committee, has been 
arming the Taliban for years. So, we have all those facts; 
plus, good reason to believe that they are providing bounty on 
our soldiers. And the response from the White House is, let's 
invite them to the G-8.
    There has been another response, recently a Department of 
Treasury decision, basically--and I will get to this later--
that they should have prevented Americans from buying Russian 
sovereign debt, and they went as light on that as they possibly 
could under the law.
    General Nicholson, in March 2018, you said that you have 
had weapons brought into your headquarters that you know were 
given to the Taliban by the Russians. As recently as last week, 
Russia claims it only supplies weapons to, quote, ``legitimate 
government of Afghanistan.'' For how long, and in what 
quantity, or what estimated quantity, have the Russians 
provided weapons to the Taliban?
    General Nicholson. Thank you for the question, sir.
    We believe there was a modest amount of support. It was 
designed to gain influence with the Taliban. And to be fair, 
our intentions were uncertain at that point. When would the 
U.S. withdraw? When would NATO withdraw? What would be left 
behind? There would be instability in the region. So, we saw 
this as an attempt by the Russians to gain influence with the 
Taliban as part of potentially a post-withdrawal scenario.
    However, that should not be misconstrued. These weapons 
made a difference on the battlefield. They weren't game-
changing in a sense, but they did make a difference and they 
did help inflict higher casualties, and against units that had 
U.S. advisors.
    Mr. Sherman. So, we know that Americans have died as a 
result of Russia providing those weapons. They have just now, 
apparently, added the additional obscenity of not just giving 
the weapons to people who want to kill us, but giving them 
extra money if they actually do.
    I would like to focus on Russian sovereign debt and other 
targeted sanctions. Under existing statute, the Secretary of 
the Treasury was supposed to choose from a menu of sanctions 
for other Russian wrongdoing dealing with their sovereign debt. 
If we completely shut off American involvement in their 
sovereign debt, we could probably drive up their borrowing cost 
by half a percentage point. But the Secretary of the Treasury, 
in the midst of all this, decided to say, well, it is fine for 
Americans to buy this debt in the secondary market and to buy 
the debt directly from State-owned enterprises.
    Would a ban on any American involvement in Russian 
sovereign debt be the kind of pain that Putin would feel, and 
what other economic sanctions do you think are appropriate? I 
will ask whichever witness wants to respond.
    Dr. Wallander. I can take that one, sir. One of the most 
important targets to impose costs on political decisionmakers 
in Russia is, indeed, the financial sector in general, and 
sovereign debt is certainly part of the menu where you could 
increase those costs.
    I think that, as an instrument of overall U.S. policy, or 
U.S. policy up to this instance, that is constructive and 
smart. I would say, in this instance, though, I would target 
sanctions in two areas. One, more on the security services, on 
defense sales, on the kinds of money that Russia makes from 
sales of defense capabilities abroad, and on financing that 
supports many of these asymmetric operations; that would target 
it more directly on those who are responsible for these 
decisions.
    Mr. Sherman. If I could interrupt you, obviously, we would 
like to prevent Russia from selling weapons to India, Turkey, 
and others, but that is not something we have the sovereign 
right to do. And as long as the Russian government can borrow 
money, the fact that particular military complexes cannot 
borrow the money is fairly irrelevant, in that the money is 
fungible. Once you lend it to the Russian sovereign, they can 
certainly lend it or invest it in military operations.
    I will point out that we had an amendment in last year's 
NDAA, which I wrote, to prohibit U.S. purchase of sovereign 
debt of Russia and its enterprises until they could go a full 
election cycle without interfering in our elections. That 
passed the House, but, of course, was stripped out by the 
Senate. I am hoping that Senators realize that now is the time 
to impose some real sanctions on Russia for all of its 
behaviors, and beginning with this bounty.
    And I yield back.
    Mr. Castro. Thank you.
    All right. Mr. Chabot of Ohio.
    Mr. Chabot. Thank you very much. I appreciate it.
    First of all, there ought to be no question in anybody's 
mind that Russia and Putin, in particular, are no friend of the 
United States, and anybody who thinks otherwise is on the wrong 
path and does not know what they are thinking about or talking 
about, or anything else. They are not our friend.
    General Nicholson, let me go to you with the first 
question. The reason we went to Afghanistan in the first place 
was to root out terrorists there and to ensure that they could 
never use that country to stage attacks against the United 
States again. Could you give us your current assessment of the 
strength of the Taliban-Al Qaeda ties, the relationship 
currently? And then, is there any reason to believe that the 
Taliban would ever, or will ever, live up to any commitments 
that they might make?
    General Nicholson. Thank you for the question, sir.
    And I have to caveat this by saying I do not have access to 
the classified intelligence that I did when I was commander in 
the time since I have left. However, you have hit the nail on 
the head. This is why we went there, the idea that it would 
never be used as a launching pad for attacks against the U.S. 
That has not happened. So, we have been successful in that 
sense.
    But I am concerned that they have not renounced their ties 
to Al Qaeda. This is one of the conditions in the agreement. 
And not only a public renunciation, but a real severing of ties 
with Al Qaeda. And this was the original reason that brought us 
there, and, of course, this condition has to be met to have an 
enduring peace that secures our interests.
    Mr. Chabot. Thank you very much.
    Mr. Brzezinski, I will go to you next, if I can. What does 
Russia hope to achieve in Afghanistan, especially with respect 
to us? It would seem that, if they want us to leave, that they 
should be working to stabilize the country and decrease, not 
increase, U.S. deaths. Could you talk about Russia's goals, 
their security interests in Afghanistan currently?
    Mr. Brzezinski. Thank you, sir. Can you hear me?
    Mr. Chabot. Yes, I can hear you fine.
    Mr. Brzezinski. Great.
    I think Russian objectives in Afghanistan are the 
following:
    One, there is a bit of a revenge component because, 
particularly when it comes to the team led by President Putin 
in Moscow, they are bitter over the Soviet loss in that country 
that they see was catalyzed by U.S. support to the mujahideen 
at that time.
    Second, I think they want to impose pain to help tie us 
down, to impose cost, to psychologically break our mental 
fortitude as an international actor.
    And then, three, ultimately, they would like to see us 
leave, and leave in a way that enables them to develop a 
relationship with whatever regime or government that would 
succeed in Afghanistan, so they can establish a relationship to 
further their influence in that region.
    So, three things: revenge, imposing pain; and tying us 
down, and, ultimately, getting us out, so that they can enhance 
their influence over the region.
    Mr. Chabot. Thank you.
    Mr. Brzezinski, I will stick with you, if I can. It seems 
like we have been playing defense vis-a-vis the Russians, and 
the Chinese, for that matter, relative to disinformation and 
propaganda for way too long, for some time. What would you 
suggest in terms of a more proactive U.S. policy in this area? 
And, of course, we are not interested in propaganda. We are 
interested in getting the truth out there. But how can the U.S. 
do a better job vis-a-vis both Russia and the Chinese in that 
sphere?
    Mr. Brzezinski. Information operations have been long a 
part of U.S. policy. It was our effective management of 
information operations and engagement, so to speak, public 
diplomacy, in the cold war that was probably one of the keys to 
our success . We won economically, we won militarily, but we 
also won in the information engagement sphere, the public 
diplomacy sphere.
    The cornerstone, the driver of that dimension of our 
strategy was the United States Information Agency, an agency 
that we shut down in 1999, at the time when it had, roughly, a 
$2 to $3 billion budget. And at the high point, the USIA I 
think had over 10,000 people working to get the U.S. 
perspective out, working to deepen ties, working to support 
dissidents around the world.
    When we shut down the USIA in 1999, we basically disarmed 
ourselves in the information space and have never really kind 
of been able to recover from that. So, that is why I believe we 
ought to reanimate this institution, give it Cabinet-level 
rank, bring back its bureaucracy, to use that terrible word, 
and enable us to get back into the game of information 
operations on the offensive. That is going to be critical 
because right now we have handicapped ourselves.
    Mr. Chabot. Thank you. My time has expired, Mr. Chairman.
    Mr. Castro. Thank you, Mr. Chabot.
    Gregory Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman.
    Former Secretary of State George Schultz, I am told, would 
ask outgoing Ambassadors, he would take them to the side and 
point to the map and ask them, ``Where is your country?'' And 
naturally, these outgoing Ambassadors would point to their new 
host countries. And here, Secretary Schultz would correct them 
and tell them their country is the United States of America.
    So, I am often confounded by the President's actions that 
directly undermine the interest and security of the American 
people. This latest intelligence revelation is an alarming 
pattern by this President. The fact that the Secretary of State 
Pompeo is not testifying today is yet another alarming pattern 
of this administration. Congress has an oversight 
responsibility and duty, and the Secretary of State should be 
here to answer our questions. And I am glad that our esteemed 
witnesses are here today.
    But it is unfathomable to me that the Russian government 
continues to be unchecked as it engages in a systemic and 
aggressive policy to undermine, dismantle, and disrupt American 
alliances, threaten our democracy, and allegedly go after our 
troops. Time and time again, this committee asks, where is the 
President's loyalty and why does he fail to act? It is 
outrageous to me that we ask our service men and women to put 
their lives in danger for our peace and security, and yet, the 
administration won't believe a credible piece of intelligence 
putting bounties on their heads.
    How was Congress never briefed until the claim was relayed 
to the press, at great risk to whistleblowers? This failure to 
act, this unwillingness to brief this committee and others, 
reflects a continued antagonism and disdain for this body as a 
coequal branch of government.
    The Russian government continues to operate adversarially, 
and the President continues to show deference to Putin. By the 
administration's actions and inactions, it is unclear to me how 
President Trump would answer Secretary Schultz' question today, 
``Where is your country?''
    Let me ask, and I think that I want to ask General 
Nicholson, Mr. Morell referenced that warfighters often also 
have access to raw intelligence. Can you describe in your 
experience how you and warfighters at the tactical level would 
have handled and acted upon raw intelligence that suggested 
Russia had put bounties on American troops?
    General Nicholson. Thank you, sir.
    Yes, we do have access to that intelligence, and there is a 
vigorous dialog that goes on at all levels, between commanders, 
intel officers at different agencies. Multiple times, if I had 
a question, I would call back to Washington, talk to the heads 
of the various agencies, and we would compare our perceptions 
and fill in the blanks. And so, this dialog, very active, is 
extremely important, and it helped inform me as a commander in 
the field, so that I could make the best decisions to 
accomplish the mission and protect my troops.
    For example, if there were a threat out there that was 
identified, even if it was raw intelligence, then you would see 
commanders in the field, warfighters, take immediate steps to 
protect their service members, regardless of kind of the 
validation. Typically, the default would be to act on that 
intelligence, especially with protective measures. Now, before 
you might go offensively, you would want more precise, 
actionable intelligence.
    The other thing we would do is immediately elevate it and 
let people know. So, in the case of the Russian army and 
funding that went to the Taliban in 2018, one of the ways that 
we acted on this was to go public. And I did an interview with 
the British Broadcasting Company in which we talked about what 
the Russians were doing, the fact that Governors of northern 
provinces had brought me weapons and said, ``These came from 
Russia,'' were given by the Russians to the Taliban.
    Getting it into the public domain elicits a response. It 
may just be a denial, but you have got it on the radar screen. 
They know they are being watched and they know you are pushing 
back. And so, these kinds of actions are extremely important.
    Now, of course, the higher up you go, the more powerful the 
response is. And so, this is why in my opening comments I said 
pushing back on this kind of behavior at the highest levels is 
extremely important.
    And so, thank you for holding this hearing, because this is 
one of the ways we make the Russians aware that we are 
watching.
    Mr. Meeks. I couldn't agree with you more. I see I have 
only got a few seconds. I wish at the highest level our 
President of the United States would push back on this Russian 
aggression, and particularly in regards to the bounties that 
may have been put on the heads of our men and women in the 
service.
    And I see I am out of time. So, I yield back, Mr. Chair.
    Mr. Castro. Thank you, Mr. Meeks.
    We will go to Mr. Perry of Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman, and thank you for the 
witnesses.
    I will start out with Mr. Morell. Mr. Morell, have you seen 
the intelligence regarding the bounty story?
    Mr. Morell. No, sir.
    Mr. Perry. Okay. How about Mr. Nicholson? Have you seen the 
intelligence?
    General Nicholson. No, sir, I have not.
    Mr. Perry. Okay. Thank you.
    How about Dr. Wallander? Have you seen the intelligence 
regarding the statements?
    Dr. Wallander. No, sir, I have not.
    Mr. Perry. Dr. Wallander, in particular, as I read here 
from your notes, you have assumed that the published stories 
are true, is that--I do not want to put words in your mouth, 
but that is what my notes show me. Is that correct or 
incorrect?
    Dr. Wallander. I said that, for the purposes of this 
hearing, to be able to address and explain what Russia is up to 
in general, that I would assume that they were true. I would 
not address the falsity or truths of the public reports.
    Mr. Perry. I mean, I understand for the purposes of the 
hearing, but you understand there is a bigger story here, and 
just making the presumption or assumption that they are true 
(a) not having seen any of the intelligence personally, and (b) 
understanding that the GRU is, as I am sure you all know, is 
daily engaged in misinformation; and finally, as you probably 
know, this is based on very specious reports of human 
intelligence by individuals that have a motive to provide 
misinformation to the United States. I just think that that is 
breathtakingly irresponsible.
    But, that having been said, do you think it is appropriate, 
based on this conjecture, based on just reports from The New 
York Times that are based on yet even more specious human 
intelligence by people that aren't very friendly to the United 
States of America, that this President take action against a 
strategic adversary? Do any of you think that that would be 
appropriate?
    Dr. Wallander. Thank you, sir, for your question. To answer 
it, I would say that, if this were reported in a PDB, that it 
is certainly appropriate for the leadership of the U.S. 
Government to decide on a messaging strategy, which is short of 
what you asked about a broader action strategy. Certainly, a 
messaging strategy. I would personally start with the Secretary 
of Defense and the Chairman of the Joint Chiefs of Staff 
speaking to their counterparts. Because if the reports are 
true, the GRU reports to the Russian Minister of Defense. So, I 
hope that addresses your question. I think that would be the 
first step. You are absolutely right, actual action would not 
be warranted based on this sort of report.
    Mr. Perry. Right. I mean, where does, in your mind--and, 
ladies and gentlemen, the three that I have asked the questions 
of--where does verification of the intelligence lie in relation 
to the timeline of when you either take actions or make 
statements? Where does verification of intelligence lie? Is it 
as soon as you hear the report, the rumor, the supposition, the 
claim? Is action required then? Or does verification fall 
anywhere inside, in between, the time you hear it and the time 
you take action or make statements?
    Mr. Morell. Congressman, maybe I can answer that question. 
I think that an administration is required to take action--
whatever that action is is obviously part of the policy 
process--but is required to take action when the intelligence 
community judges with medium to high confidence that something 
has happened. And that is why, for me, knowing what that level 
of confidence is on this judgment is so very important. Because 
I think if it is low----
    Mr. Perry. Are you saying, Mr. Morell, are you saying that 
you have information that you can verify or justify that we had 
medium to high confidence that this is true, this story is 
true?
    Mr. Morell. No, sir. No, sir. The point I am trying to make 
is, I do not know what the level of confidence was. But if it 
was low, then I would be perfectly comfortable with senior 
policymakers going back to the intelligence community and 
saying, ``We need more information. We need to take a harder 
look at this. You have got to collect more and figure out 
whether this is right or not.''
    Mr. Perry. Well, I would agree with you. I would agree with 
you, Mr. Morell. And before the President or anyone takes 
actions, I think it is important to verify that. I am just 
going to quote the chairman of the committee on the death of 
Soleimani where he said, ``The decision to kill Soleimani 
escalated tensions with Iran and risked plunging us into war.'' 
And I remind everybody on the panel that Soleimani is a target 
that we had complete and verified intelligence on for many, 
many years of the deaths of thousands of American service 
members and maiming of thousands of others of my friends who 
served in uniform. And the criticism was robust for the 
President regarding that decision where there was verified, 
actionable intelligence over a long period of time, and there 
is none----
    Mr. Castro. The gentleman's time is up.
    Mr. Perry [continuing]. There is none with this.
    And with that, I yield back. Thank you, Mr. Chairman.
    Mr. Morell. Mr. Chairman, may I just add one point?
    Mr. Castro. Sure, please.
    Mr. Morell. So, I do not want to leave anyone with the 
impression that I know that the confidence level was low or the 
confidence level was medium or the confidence level was high. 
So, I think that is just very important. If it was medium to 
high, then I think that required action on the part of the 
President.
    Mr. Castro. Thank you.
    We will now go to Albio Sires of New Jersey. I think you 
are on mute there. There you go.
    Mr. Sires. Yes, I do not have any questions at this moment. 
I am just listening. Thank you.
    Mr. Castro. Okay. We will go to Mr. Kinzinger of Illinois.
    Mr. Kinzinger. All right. Thank you. Let me get on the 
video here. There we go.
    First off, thank you all for being here. I very much 
appreciate it, all your good work, everything you are doing for 
the country. This is a really important issue.
    I need to say a couple of things upfront. First off, I 
think it is too much to call this a hoax. Second, though, I 
think it is too much to say that we absolutely know this 
happened, and therefore, here should be the penalties. I have 
read every piece of intelligence, at least offered to me, and 
in terms of what level of confidence, that is not my expertise; 
that is up to the intelligence agencies.
    And I think the question of whether the President should or 
shouldn't be briefed, it is really, in my mind, an art and not 
a science. It is a matter, when do you feel, whether it is the 
brief or the intelligence experts, that you should brief a 
President on this? If it is not actionable, is it worth going 
to him? Well, if I was President, I would want to know, but not 
every President would or should.
    So, I think a lot of the so-called scandal that we have 
been seeing here is not a scandal at all. I think it is just an 
art form. And unfortunately, look, this goes to--the prior 
questioner, Mr. Perry, mentioned about Soleimani. That was a 
confirmed bad guy that took confirmed action that killed 
Americans. I operated against him in Iraq, or against his 
people at least. And there was opposition to that.
    And I think with something like this it comes down to 
political stripes, unfortunately. If you are a Republican, you 
are going to say this was nothing. If you are a Democrat, you 
are going to say this is everything. And I just want to get to 
the bottom of this, because when we jump to conclusions, I do 
not think we are doing any good for our folks in the field.
    But it seems to me that the only thing that Putin responds 
to is strength. Whenever Putin attempts a new maneuver, he 
waits to see the international community's response, and 
particularly the United States. And when nothing happens, he 
escalates. We have seen it time and again. We have seen it, for 
instance, in Syria multiple times and everywhere else.
    As I have said before, if the intelligence proved that the 
Russian officials approved of this bounty scheme, the United 
States and our international partners would need to respond 
forcefully. But had the administration responded back in 
February when the intelligence was even less certain, I fully 
believe my colleagues on the other side of the aisle would be 
holding a hearing bashing the administration on this.
    Mr. Morell, let me just ask you, during your time as CIA 
Director, would you have recommended--you touched on it--but 
would you have recommended retaliatory actions against Russia 
with anything other than high probability? You talked using 
maybe medium probability. But, when you are discussing the fact 
that this is Russia, would you on a medium or anything short of 
high probability?
    Mr. Morell. Yes, I would--so high probability, high 
confidence to an intelligence analyst is not certainty that 
something has happened, but you are getting pretty close. 
Medium to high confidence is pretty good as well.
    So, CIA Directors do not make recommendations to Presidents 
about what they should do. They characterize the intelligence 
and our confidence in it. So, if it was medium to high, I would 
tell the President that there is a very good chance that this 
happened and it is up to you on how you want to respond.
    Mr. Kinzinger. Yes, I think this is the key to this. We 
know that Russia has been meddling in Afghanistan. That is not 
a question. And I actually would have advocated for action, 
whatever that looks like, back in 2013 or 2014. It is a 
bipartisan issue, right? I mean it really is. The issue we are 
discussing is, was there particularly a bounty, not is Russia 
involved, not is Russia doing things that could kill Americans, 
because they have been. And I have been advocating to push back 
against that for a long time.
    Mr. Brzezinski, let me ask you, what other States are 
supportive of the Taliban and have any of them placed bounties 
on the U.S. or coalition soldiers?
    Mr. Brzezinski. Sir, let me just add one point on the 
bounty issue. The fact that it is plausible that these bounties 
were placed on American soldiers in Afghanistan by Russia is 
testimony in itself that our policy toward Russia is inadequate 
in terms of deterring aggression. And so, I want to make that 
important point. The fact that we are even saying this----
    Mr. Kinzinger. Fully agree.
    Mr. Brzezinski [continuing]. Underscores the point that we 
need to recalibrate our posture toward Russia across the whole 
spectrum.
    Mr. Kinzinger. Let me just say I fully agree with you 100 
percent and I would echo those comments. But, then, 
specifically, are there any other States that are doing things 
like this that we know about?
    Mr. Brzezinski. I do not have statistics on that, sir.
    Mr. Kinzinger. Okay. So, you do not know if Iran or 
anything is involved in the same kind of situation? Okay.
    Let me ask just another question of General Nicholson. 
During your time commanding U.S.----
    Mr. Castro. Your time has expired.
    Mr. Kinzinger. I'm sorry?
    Mr. Castro. Your time has expired. Do you have a quick 
question?
    Mr. Kinzinger. Oh, I'm sorry, I did not see a clock up 
there. I will yield back. Thank you.
    Mr. Castro. Okay. Thank you.
    We will go to Mr. Connolly of Virginia.
    Mr. Connolly. Thank you. Can you hear me, Mr. Chairman?
    Mr. Castro. Yes, I can hear you.
    Mr. Connolly. Thank you.
    And thank you to the panel.
    Mr. Morell, on June 30th, the National Security Advisor, 
Mr. O'Brien, and the White House Press Secretary, Ms. McEnany, 
said the President had not been briefed on this intelligence 
due to disagreements among the intelligence community. Is that 
how intelligence shifts up to the President, that it has got to 
be in agreement or he does not hear about it?
    Mr. Morell. Yes, sir, there are often pieces in the 
President's Daily Brief where one or two or three agencies 
believe something and another agency has questions about it. 
And those dissents are expressed in the piece. The reason for 
the dissents are expressed in the piece, and the reason why 
those dissents are important to the President are often 
expressed in the piece. So, they do not need a unanimous view 
to move forward.
    Mr. Connolly. So, the explanation they gave does not really 
pass any kind of real test, based on your own experience?
    Mr. Morell. Yes, sir.
    Mr. Connolly. That is not how it works?
    Mr. Morell. That is not how it works, sir.
    Mr. Connolly. Right. So, there is reason to question the 
credibility coming out of the White House as to whether the 
President, in fact, got briefed. We know that the President 
does not like to read things, but that does not mean that it 
was not available to him. And it is not clear, from my 
understanding, that he was not briefed. Certainly, the 
rationale given for why he was not briefed, as you just pointed 
out, Mr. Morell, does not have credibility. It is just not how 
the process works.
    But I would just say, even from a common-sense point of 
view, if I were an intelligence person and I saw any kind of 
intelligence that seemed halfway credible that the Russians had 
ramped up what they were doing in Afghanistan and were now 
paying a bounty on American lives to kill them, I am sure as 
hell I would want to make sure the Commander in Chief knew 
about that. I would take the risk that he know about that, 
whether it was small, medium, or high credible, actionable 
intelligence.
    Mr. Brzezinski, I really appreciate what you had to say 
about Russia. The word that comes to my mind, because Dr. 
Wallander just said we have to ask the question why would 
Russia do this, I think that is the pertinent question. And for 
me--and I want you to react--you said Putin is a risk-taker. I 
would also say he loves to push, probe, and expand boundaries. 
He is always checking what the boundaries are.
    And when you have a President who says, ``I believe Putin 
over my own intelligence community about Russian interference 
in the 2016 election,'' ``I am willing to pull out 8,000 troops 
from Germany because I am angry at Merkel for not coming to the 
G7 meeting,'' ``In fact, I want to invite Putin to that G7 
meeting,'' and, of course, having withdrawn from critical arms 
control agreements, and the like, and now calling this 
intelligence a hoax, it seems to me that, if I were Putin, I 
would tally all that up and say, ``I can operate with impunity 
with this administration. There are going to be very few 
consequences for pushing that envelope as far as I can push 
it.'' Do you think that is a fair appraisal of where we are in 
the current relationship with Vladimir Putin's Russia?
    Mr. Brzezinski. Sir, I am on track with you on this. I 
would just characterize Putin not so much as a risk-taker, but 
someone who has got very clear objectives, is willing to 
assertively pursue those objectives, but who is also a 
pragmatist. As Celeste pointed out, as Dr. Wallander pointed 
out, he picks his battles carefully. And as you pointed out, he 
will probe, and if he does not see pushback, he will push 
further. If he sees forcibly pushback, he will back off.
    And that is what is a concern about this immediate issue at 
hand, which is the bounties issues. Now that it is out in the 
public domain, now that it is an issue that has gotten the 
attention it has, it is now incumbent upon the administration 
to clearly articulate to the Russians this is completely 
unacceptable.
    Mr. Connolly. Yes, and I would----
    Mr. Brzezinski. We need a forceful response, at least 
rhetorically. And as for more specific elements of a more 
aggressive or substantive response, that has to be determined 
based on the intelligence.
    Mr. Connolly. And I would add to what you just said, Mr. 
Brzezinski, conversely, there are consequences for not doing 
what you just said. When Putin hears equivocation and, well, we 
did not know and it is not clear, and we did not have 
actionable intelligence such that we could react at all, I 
think that gives him a flashing green light to do more of it 
and to look at other areas where he can do damage to the United 
States. And I think that is a very dangerous situation our 
President and this administration have put themselves in.
    With that, I yield back, Mr. Chairman.
    Mr. Castro. Thank you.
    We will go to Mr. Zeldin of New York. We cannot hear your 
audio there, Mr. Zeldin. For some reason, I am not hearing you. 
Can we come back to you? Okay.
    What I am going to do is go to the next Republican, and 
then, go to a Democrat. All right? So, Mr. Mast of Florida. Mr. 
Mast, are you there?
    [No response.]
    Okay. Will the administrator tell me who the next 
Republican is that we can call on?
    Ms. Stiles. Mr. Fitzpatrick.
    Mr. Castro. Mr. Fitzpatrick? Okay.
    Mr. Fitzpatrick. Can you hear me?
    Mr. Castro. Yes, Mr. Fitzpatrick.
    Mr. Fitzpatrick. Okay. Thank you. Thank you, Mr. Chairman, 
Mr. Ranking Member.
    Thank you to the panelists.
    And just to echo what my friend Adam Kinzinger had said, I 
hope that our focus can be on, No. 1, fixing the problem, 
getting our arms around this intelligence and fixing it. And we 
always can have time to go back and do an after-action report 
on what did or did not happen after the fact, after we fix the 
problem.
    So, for the panelists, thank you for being here.
    And I just wanted to get your updated sense. I served in 
Ukraine as an FBI agent. That was my last international 
assignment. And we were, obviously, very well aware of Mr. 
Putin's sinister motives when it comes to that region. We all 
knew that Mr. Putin has geographic dominance aspirations to 
reconstitute the USSR. Iran has religious dominance 
aspirations. China has economic dominance aspirations. And in 
many ways, they were operating--in some ways, I should say--in 
collaboration with one another.
    So, if the panelists could just shed light and maybe 
provide us with an update on your assessment or your sense for 
the collaboration going on between Vladimir Putin and Syria, 
Iran, China, North Korea, and any other actors in the region?
    Dr. Wallander. I can speak to that, sir. Russia and Iran 
collaborate militarily in Syria and have for years. The Russian 
military is not a ground presence in Syria and it relies on, as 
I suggested earlier, quasi-private military mercenary groups 
and, also, coordination with other actors, including Iran, in 
Syria.
    Russia strategically coordinates with China in areas where 
they have common interests in challenging American leadership, 
whether that is in the U.N. Security Council in trying to 
prevent U.N. Security Council resolutions, for example, 
condemning the Assad regime in Syria or many others. They share 
an interest in trying to revise the global liberal order in 
order to undermine American leadership.
    So, you can find instances in which Russia cooperates with 
countries in areas that really affect in a negative way 
American leadership and American allies and our interests.
    Mr. Fitzpatrick. Do any of the other panelists have 
anything to add to that?
    [No response.]
    Okay. I yield back, Mr. Chairman.
    Mr. Castro. Thank you.
    Mr. Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman, and to the ranking 
member. Thanks for holding this hearing.
    And thanks to the extraordinary testimony of our witnesses.
    Mr. Morell, I am going to ask you about the reports that 
there was information in the President's Daily Briefing that 
the Russians were putting a bounty on the heads of American 
troops. And we have heard lots of reasons why there was no 
reason the President should have been concerned about this, 
should have wanted to be concerned about this. But I just want 
to ask you, I want to take a step back and have you explain how 
the President's Daily Brief is assembled. Can you do that for 
us?
    Mr. Morell. Yes, sir. So, there is a meeting every morning 
with the briefers there who just briefed that morning and they 
provide their feedback on what happened. The most important 
part of that feedback, are there any additional questions that 
customers need answers to that would result in a piece the next 
day? And then, the various parts of the intelligence community 
propose pieces for the next day and the out days and decisions 
are made about what is going to be in the book the next day and 
what is going to be in the book the day after that.
    Once those pieces are drafted and approved within the 
agency that writes them, they are coordinated across the 
intelligence community. And that is where you can get 
agreement. So, you can get all agencies agreeing or you can get 
dissents. You can get DIA and CIA think one thing and NSA 
thinks something else.
    So, that is pretty much how the process works. I would add 
that within each agency the process for getting a piece 
approved to be even sent out for coordination is 
extraordinarily rigorous, because at the end of the day these 
views are not views of a Michael Morell; they are the views of 
the Central Intelligence Agency and the views of the United 
States intelligence community.
    Mr. Deutch. How do you react, Mr. Morell, to some of my 
colleagues coming back now to assert that this information 
shouldn't have been in there? One of my colleagues said it was 
not verifiable. One of them said it was biased human 
intelligence and that, as a result, it should have been clear 
back in February that this is nothing to be concerned about.
    Mr. Morell. So, if it was in the PDB--and I do not know 
that it was--but if it was in the PDB, it means at least one 
agency--one important agency, right?--believed the information 
to be true at some level of confidence. So, that is the 
response, right, is that someone in the intelligence community 
believed that information to be true. And that is why it was in 
the PDB. It would not be there otherwise.
    Mr. Deutch. And so, before we even get to the question of 
low, medium, or high, which we discussed earlier, let's talk 
about the kind of information that it is. If there were 
information in the PDB that said that there was a threat 
against one of our Ambassadors in Europe, and it did not come 
up in the Daily Brief, at the morning meeting with the 
President, what would happen then? Would someone raise it with 
the President?
    Mr. Morell. So, sure. If it is not in the PDB, but the 
President needs to know it, then the briefer can raise it on 
their own, right? ``This is something else you need to know, 
Mr. President.'' Or the DNI, who is sitting there as well, the 
Director of National Intelligence can raise it and say, ``Mr. 
President, there is something else you need to know.'' Or the 
Director of CIA, or anybody else in the room.
    I mean, one of the things that people forget here is that 
the President's briefer is the most junior person in the room. 
I was once that person. I was the most junior person in the 
room. Right? So, the National Security Advisor, the White House 
Chief of Staff, the Vice President, the Director of National 
Intelligence, Director of CIA are all in the room. Any one of 
them are capable of saying, ``Mr. President, in addition to 
what is in your book, you also need to know this,'' or that.
    Mr. Deutch. Who decides? Does the junior briefer decide 
what to report to the President?
    Mr. Morell. So, in general, yes. In my case, I went in 
there every morning with the Director of Central Intelligence, 
George Tenet. So, he wanted to know what additional materials I 
was going to give to the President or share with the President. 
So, he said yes or no to that. But, in general, the briefers 
decide.
    Mr. Deutch. Mr. Morell, I would just close by pointing out 
that, when one of the agencies says that the Russians are 
putting a bounty on the heads of American soldiers, that 
someone in that room, one would think, would care to share that 
information with the President of the United States. And when 
this information comes out months later, the response from the 
President of the United States, out of respect for the families 
who lost loved ones in Afghanistan, should not immediately come 
to his own defense, but should try to get to the bottom of what 
happened. Fixing the problem is not about the PDB; fixing the 
problem is making sure that the President is looking out for 
the protection of our troops and potential Russian efforts, 
first and foremost. That is what I think needs to be about.
    And I yield back.
    Mr. Castro. Thank you.
    We are going to go to Mrs. Wagner.
    Mrs. Wagner. Thank you very, very much, Mr. Chairman, for 
hosting this very important hearing on the absolutely shocking 
allegations that Russia is paying Taliban-linked militants to 
attack our service men and women. If these reports are, indeed, 
true, we must take strong and swift action to show Russia that 
attacking Americans is never acceptable and will be met with a 
swift and strong response by the United States of America.
    Russia has proven that it will exploit any opportunity to 
undermine and roll back American influence, even at the cost of 
destabilizing regions and prolonging bloody conflict. This is 
evident in its malign involvement in civil wars, unrest, and 
conflicts in places like Ukraine, Syria, and Venezuela. 
Russia's actions are reprehensible, and I am proud to have 
supported robust sanctions against the Putin regime.
    Dr. Wallander, you noted that reports of an alleged Russian 
bounty program with the Taliban indicate an escalation in 
Russia's long-running asymmetric competition with the United 
States. Does this illuminate any vulnerabilities in our 
deterrence against Russian asymmetric operations and how can we 
restore the credibility of our deterrence?
    Dr. Wallander. Thank you very much for your question.
    I think that the vulnerability lays in our failure to track 
Russian activities closely enough and with enough confidence to 
be able to take counteractions. What do I mean by that? It is 
exactly by operating in this gray zone that Russia hopes to 
have the advantages of these operations without suffering the 
kinds of consequences we have talked about--their exposure, 
American military commanders taking countermeasures, being 
called to account by political leadership, potential financial 
sanctions. I would look at disruptive activities that the 
United States could undertake to complicate these kinds of 
operations.
    So, we have to get serious about this, not only because of 
this incident, which I do think, if it is true, is an 
escalation because it exhibits a willingness to take risk for a 
direct connection between Russian action and American military 
fatalities. And it suggests that the constraints of risk 
aversion that we have referred to earlier might be being lost.
    Mrs. Wagner. Russian military intelligence, or GRU, is 
behind a string of attempted assassination and coups, frankly, 
across Europe, including in the Balkans where Russia is seeking 
to exploit existing divisions to slow or prevent regional 
countries from integrating into the European Union or NATO. I 
am deeply concerned that Russia is fueling ethnic divides in 
the interest of weakening Balkan States. Mr. Brzezinski, how 
can we work with our NATO partners to prevent the GRU from 
undermining progress in the Balkans?
    Mr. Brzezinski. Thank you, ma'am.
    I would just add on Celeste's point that, if you look back 
at 2008, how quickly President Putin backed off when he was 
confronted with the possibility of a direct red-on-blue 
engagement--that is, when he was confronted with the 
possibility he might have to shoot at American soldiers--
compared to 2018 in Syria and today with the allegations of 
putting bounties on American soldiers, and in 2018 where 
Russian paramilitaries actually attacked a U.S. outpost, this 
shows how Russian aggression, assertiveness, and provocations 
have escalated. And if we are really going to curb, deter, 
contain, push back Russia's actions in this area, I think we 
have to have a much firmer posture across the board. We cannot 
be willing to invite him or initiating invitations to the G7s. 
The political isolation has got to be real and sustained. Our 
economic pressure has to be much harder.
    In addition to some of the sanctions that Celeste was 
talking about, I would seriously consider pulling Russia from 
SWIFT. Really hammer its financial sector. Yes, this will cause 
pain and a lot of collateral economic damage on people who 
shouldn't be held responsible for Putin's actions in Russia, 
but that is a geopolitical reality. If we really want to shake 
up Putin, we have to shake his political base, his political 
stability.
    And militarily, we need to be more prepared to push back 
against Russia. And I am very concerned about our posture in 
Europe. Although we have made progress in recent years, it is 
still an inadequate posture to competently deter Russian 
aggression, particularly in North Central and Eastern Europe.
    Mr. Castro. Time is up----
    Mrs. Wagner. Thank you, Mr. Brzezinski. I believe my time 
has expired and I will yield back.
    I have several other questions, Mr. Chairman, and I will 
put them into the record.
    Mr. Castro. Sure. Yes.
    Mrs. Wagner. Thank you.
    Mr. Castro. Thank you, Mrs. Wagner.
    And just for everybody, please, so that we can get to all 
the members on the committee, as you are asking questions, if 
you can glance on the grid at the time as it is coming down.
    For the witnesses, I know that you all have a lot to say, 
and we appreciate your expertise, but if you all can also be 
mindful of the time, so that we can get to everybody and help 
everybody ask all questions. All right?
    We are going to go to David Cicilline, and then, I am going 
to try to go back to Mr. Zeldin of New York right after that. 
David?
    Mr. Cicilline. Thank you, Mr. Chairman, and thank you, 
Ranking Member McCaul, for calling this really important 
hearing.
    I want to begin by saying I disagree with my friend, Mr. 
Kinzinger, who said, if you are a Republican, this is nothing; 
if you are a Democrat, this is serious. If you are an American, 
the idea that there is intelligence that the Russians may have, 
in fact, been paying a bounty on the heads of our American 
soldiers is outrageous and demands a whole-of-government 
response.
    But I want to get, first, to this Presidential Daily Brief 
because some people have suggested that, oh, you know, it can 
be an innuendo; it could be a rumor. And so, Mr. Morell, I want 
to ask you, in order to get into the President's Daily Brief, 
isn't it a fact that there has to be a sufficient amount of 
evidence that it is a credible statement of fact? It is sort of 
the gold standard among the intelligence community? Rumors and 
innuendos do not make it into the President's Daily Briefing?
    Mr. Morell. So, I would agree with you. I would just change 
one word. I would change ``fact'' to ``assessment,'' right? It 
is an assessment that Putin is providing these bounties, and it 
may not be a fact, but it has to be credible in order to get in 
there, yes, sir.
    Mr. Cicilline. Right. So, this idea of just rumors, 
unsubstantiated rumors do not make it into the Presidential 
Daily Brief. And I think the President has acknowledged that it 
was in the President's Daily Brief, or at least he said he did 
not read, he was not briefed on it, and he did not read it, 
which presents its own problem. Kind of the consequences of a 
President who does not read the Daily Brief is, in and of 
itself, alarming.
    But, in addition to that, the National Security Advisor, 
Mr. O'Brien, acknowledged publicly that he had begun to 
develop, along with the other appropriate officials, a set of 
responses to this activity by the Russians, a set of options to 
present to the President. And is it fair to say that you do not 
go through the arduous process of developing a set of responses 
without having some confidence that the intelligence that you 
have collected is accurate, credible, and worthy of action?
    Mr. Morell. In my experience, yes, sir.
    Mr. Cicilline. Mr. Morell?
    Mr. Morell. I was just going to say, in my experience, sir, 
yes, you would need credible intelligence in order to start 
that process.
    Mr. Cicilline. And so, in this context, we have President 
Trump who has fawned over President Putin. On the campaign 
trail, he repeatedly complimented Vladimir Putin. He denied 
that Russia interfered with U.S. elections. In 2017, in an 
interview with Bill O'Reilly, when he was asked about Putin 
being a killer, he said, you know, there are a lot of killers; 
do you think this country is so innocent? And then, in 2018, at 
the Helsinki Summit, Trump incredibly sided with Putin over our 
own intelligence community about Russia interfering with our 
elections. He has withdrawn from the Open Skies Treaty, which 
benefits Russia. He has proposed reducing U.S. forces in 
Europe. So, it is in all of that context. Putin has annexed 
Crimea, remains steadfastly hostile to Ukrainian democracy in 
violation of international law, and just last week we saw him 
again, as a dictator, extend his term in office until 2036. So, 
it is in this context that reporting that the President failed 
to act or even condemn this action by the Russians is so 
outrageous.
    And so, my first question is to you, Mr. Brzezinski. This, 
it seems to me, suggests the absence of
    [audio malfunction]. The President is not really interested 
in doing it. But would it, in fact, be helpful if we actually 
had a strategy to contain Russia when we needed to and to 
engage with them when we needed to, and what should that look 
like?
    Mr. Brzezinski. Sir, I missed part of your question, but I 
understood it is, basically, do we have a strategy for dealing 
with Russian assertiveness?
    Mr. Cicilline. And should we? Do we have one, should we, 
and what should it look like?
    Mr. Brzezinski. I think right now, and unfortunately, I 
think this is true across the last several Republican and 
Democratic administrations, we have really had kind of an ad 
hoc strategy. It has been reactive and it has been incremental. 
What we really need to be doing is leveraging the full spectrum 
of power that we have to deal with Russia. And that power 
includes our economic might. I think we ought to be leveraging 
more economic sanctions. And think about it, we are a $17 
trillion economy; Russia is somewhere between 1 and 2. We have, 
with the Europeans, a 34-to-1 advantage in GDP comparison. We 
ought to be hammering the Russian economy on this if we really 
want to be serious about convincing Russia to take a different 
course of action.
    On the political side, we can impose more aggressive 
political sanctions on Russia. And then, also, as I have 
pointed out, we need to adjust our military posture.
    Mr. Cicilline. Thank you.
    And, General Nicholson, my last question, if the 
allegations that are reported in The New York Times are true 
and Russians placed bounties on the heads of American soldiers, 
what should the President of the United States do to ensure 
that service members' families and the American people gain 
some comfort in knowing that we are doing everything we can to 
protect the men and women in uniform and to ensure that the 
Russians know that we will not tolerate this and we take this 
action very seriously?
    General Nicholson. Yes, what you just said, sir. We should 
let the American people know that we will do it, and then, that 
would be visible by, as I mention in my recommendations, very 
highest levels of our government, drawing a clear line that 
this is unacceptable.
    Mr. Cicilline. Thank you.
    Mr. Castro. All right.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Mr. Castro. Thank you, Mr. Cicilline.
    Mr. Zeldin, hopefully, we have got you now. I still cannot 
hear you. Yes, now it says you are on mute there. Yes, it is 
not coming through. Yes, sorry about that.
    I will go to the next Republican, Mr. Curtis. Mr. Curtis?
    [No response.]
    How about Burchett? Okay.
    Mr. Burchett. Can you now hear me?
    Mr. Castro. Yes. Oh, yes, we can hear you.
    Mr. Burchett. I hate cutting in front of everybody, 
especially my colleague Lee Zeldin, who I make him look good on 
the baseball diamond. I am a consensus fourth stringer on our 
baseball team, in case you all did not know that.
    And it is a pleasure being here with you all, and thank you 
all. I am very interested in this topic. I have talked about it 
on the news. I have gotten busted from both sides on it.
    And I think it is pretty much known that Putin is a thug. I 
mean, I am sure he quakes in his Gucci loafers when he hears 
that the 435th most powerful person in Congress isn't a fan of 
his, but I think he is a thug. I do not know why there is any 
fascination with either side on him.
    We know that Russia has been helping the Taliban through 
political, maybe even material means since 2016. The Russians 
justify this because of the rise of the Islamic State.
    Now the--I am not sure if I say it right--but the Khorasan 
Province and the ISKP and their view that the Taliban is less 
of a threat to their security, and my question is this: what do 
the Russians gain by paying the Taliban to kill our troops if 
we have a shared enemy in the ISKP? And you all just jump in. 
Ma'am, why do not you go? Ladies first. I am in the South, so 
that is--go ahead.
    Dr. Wallander. Thank you, sir. I am happy to address that.
    I think the goal of Russian policy now--and General 
Nicholson pointed to this as well--is to get the United States 
out. There was a shift about half a decade ago where Russia was 
ambivalent. It saw some common interests in fighting 
fundamentalists and extremists, but, after it invaded Ukraine, 
and the United States took firm action to lead especially 
Europe in sanctions and isolation, the Russian leadership 
evaluated that the threat of the United States being nearby 
militarily, not just NATO in Europe, but in the Middle East and 
in Central Asia--remember, Russia worked to kick the U.S. out 
of the air base in Manas, Kyrgyzstan as well. That was the 
goal, to get us out and to benefit from our departure, plain 
and simple, I think by the period of this incident.
    Mr. Burchett. For the rest of you all, I would be curious 
what you have to say.
    General Nicholson. Yes, I will jump in, sir. General 
Nicholson here.
    I agree with Dr. Wallander. There was a lot of hedging 
activity, we would call it, I would say, as it was unclear what 
the United States' intentions were near the end of the Obama 
Administration. And we had a Stated intention to leave. We did 
see Pakistanis, Iranians, as well as Russians, all getting 
involved, I think to gain some influence in what was going to 
be the environment after we left, after the U.S. and NATO left.
    So, I think a part of it was motivated by a desire to gain 
leverage, and then, another part is their legitimate concern 
about the spillover of terrorism into Central Asia and Russia. 
However, this was overStated and this was called their 
misinformation campaign, suggesting that the United States was 
supporting ISIS, and, in fact, it was deliberately promoting 
it.
    So, I think there is a combination lens, as with many 
things, with truth and fiction, as they pursued their overall 
goal, which is to undermine us, to undermine NATO. They did not 
want to see us be successful there and they wanted us out of 
the region.
    Mr. Burchett. Thank you.
    Mr. Morell. Congressman, if I could add just one thing, I 
agree with everything that Dr. Wallander and General Nicholson 
said. I would just add that this is about Afghanistan, but it 
is also about outside of Afghanistan. This is about reminding 
Americans that, wherever you go in the world, it might not be 
safe. And they want us to think twice about sending troops 
anywhere. So, this is a pretty broad policy as well as 
Afghanistan-specific.
    Mr. Burchett. All right. Real quick, I am running out of 
time, but what can we do to make sure this does not happen 
again? We can talk all these broad statements, but bottom-line 
me. I am in east Tennessee; we need to cut to the chase. Ma'am, 
what do you think bottom line? I have got 40 seconds, so 10 
seconds apiece.
    Dr. Wallander. A political message, but also disruption 
operations. The GRU can operate like this because it can travel 
to Europe. It can use international financial institutions. And 
if it did not have access to those resources, it would not be 
able to engage in these operations.
    Mr. Burchett. General?
    General Nicholson. Sir, I would say, No. 1, strongly and 
clearly and unequivocally State this is unacceptable. And then, 
second, the other things that they are interested in, and this 
is why I suggest suspending any talk of withdrawing troops from 
Germany.
    Mr. Burchett. Mr. Morell, I have got 1 second.
    Mr. Morell. Sir, I would say you have to play to Putin's 
fears. And what he fears is his middle class coming out into 
the streets of Moscow and saying they want change and they want 
him to go away. And that is why I agree fully with Mr. 
Brzezinski that the sanctions need to be broad-based and should 
not be targeted. They should be broad-based.
    Mr. Burchett. Great. Thank you all.
    Thank you, Mr. Chairman.
    I appreciate all you all.
    Mr. Castro. Thank you.
    Mr. Burchett. And I actually miss you guys in person. I 
know it is not the same without me being there live. So, thank 
you, Mr. Chairman. And, Ranking Member, as always, it is good 
seeing you, Brother.
    Mr. Castro. Ms. Titus?
    Ms. Titus. Thank you, Mr. Chairman.
    I want to thank my colleagues and the panel for giving us 
very detailed discussion about the issue of bounties. But I 
want to look at this from a bigger picture, as we have started 
to do. I think Mr. Brzezinski said that our policy over several 
administrations has been ad hoc and reactive, and we know that. 
You just go back to Obama. We had the reset with the red 
button. That was pretty optimistic. People thought we were 
going to accomplish a lot, but it fizzled pretty fast, and 
then, ended up with Crimea and sanctions and adoptions being 
denied and interference in elections.
    So now, we have got a new President and a new policy, if 
you can call it a policy. Nobody has come up with a name for it 
because it is so confusing. The President talked about Putin in 
his campaign and praised him, but, then, on the other hand, he 
said, ``I've been more aggressive against Russia than any other 
President.'' And then, I think you, Mr. Chairman, laid out all 
the things that have happened in recent days that show how the 
President feels about Mr. Putin.
    We have heard some grand strategies now for what our policy 
should be, but I do not see any of those being put into effect 
by this administration, judging from his recent behavior. But I 
am optimistic. I think we are going to have a new President 
here in a few months. So, I would like to talk about what 
difference that will make. Will that cause Putin to change his 
policy, as he deals with the new President? The fact that he is 
going to be there until 2036, he thinks, will that affect his 
behavior? How can we now get back into multilateral 
relationships to change the new reset or a new policy? And how 
can we more effectively deal with his plausible deniability, 
like the Wagner Group that he often hides behind? So, given 
those major changes that I anticipate will come in November, 
could you kind of address how you think that will affect what 
our policy toward Russia will be?
    Mr. Brzezinski. If I could, I will take a stab.
    Ms. Titus. Thank you.
    Mr. Brzezinski. Whether it is a Trump administration or a 
Biden administration, there are four kind of elements I would 
have for effecting Russia's strategy.
    One is to ratchet up political isolation of the Putin 
regime, so he does not get legitimacy, political legitimacy, 
and stature through fora like the G7.
    Second, I would enhance our military readiness in key 
frontiers. I focus most on Central Europe, but that is one area 
we ought to be continuing to enhance our military readiness, 
particularly for high-intensity conflict.
    Third, as I mentioned several times, we ought to enhance 
our economic pressure, really impose economic pain on Russia.
    And then, fourth, kind of following the point that was 
inferred by Director Morell and Dr. Wallander, we ought to 
really think about our own strategy disruption against Russia. 
In the same way that Putin has been mucking around in our 
politics and the politics of our allies and partners, we ought 
to be leveraging his own political weaknesses by leveraging our 
asymmetric advantages and asymmetric tools like cyber warfare 
and information operations.
    His political stature isn't as strong as he would like it 
to be. And the more we could create a certain amount of 
uncertainty within Russia about his own political well-being, 
the more likely he is going to be focused inward.
    So, the combination of this external pressure and a 
strategy of disruption that affects his internal stability I 
think is in order for more effective Russia policy.
    Ms. Titus. Dr. Wallander?
    Dr. Wallander. I would agree with what Mr. Brzezinski said 
in terms of the focus of the strategy. And I would just 
observe, also, that if you are going to focus on isolation, 
greater defense spending, and better planning, especially in 
Europe, and not only in Europe, and economic pressure, the 
United States needs to do it in coordination with allies and 
partners, because, otherwise, it is not effective.
    Sanctions escape, it is easier for Russia to do if the 
United States isn't coordinated with Japan, the other members 
of the G7, and certainly with Europe, given the importance of 
the European economy to Russia. So, we need to rebuild those 
alliances and partnerships, both because they are good for 
America, but if we want to have an effective strategy for 
coping with Putin's Russia, we have to do it with those strong 
allies and partners.
    Ms. Titus. Thank you.
    And, Director Morell, any addition?
    Mr. Morell. Ma'am, just to answer your direct question 
about Vice President Biden, I think the important thing is that 
Putin will test him immediately. And the Vice President will 
need to respond along the lines that all four of us are 
suggesting in order for Putin to be constrained. And if the 
Vice President does not respond that way, then Putin will see 
an open field ahead of him. So, he will test within the first 
few months a new President.
    Ms. Titus. Thank you. I yield back.
    Mr. Castro. Thank you, Ms. Titus.
    We are now going to try one more time Mr. Zeldin. I think 
he has fixed his computer and it may be working for him now.
    Mr. Zeldin. Mr. Chairman, do you have me?
    Mr. Castro. I do.
    Mr. Zeldin. All right. So, thank you. Thank you, Chairman.
    First of all, I would like to State that I view Russia in 
many ways as an adversary of the United States. Vladimir Putin 
thinks he is 7 feet tall. If he could have his way, he would 
put the USSR back together again. That is where I come from.
    But, first, I am approaching this from a position of facts. 
I have been trying over the course of the hearing to follow a 
bunch of bad assumptions to take the story into different 
directions and it is unfortunate.
    But, first off, before I get into some of that, to followup 
on the exchange just now, as the question was presented 
conclusively that Joe Biden was going to get elected in 
November, and how would that impact his relationship with 
Vladimir Putin, if we are going to go there, to complete the 
record, yesterday he released a 110-page agenda, and nowhere in 
those 110 pages does it mention Russia or terrorism once. It 
does mention other nations and, obviously, a lot of other 
priorities. So, to help answer that question of my colleague.
    To also help cleanup one thing that Mr. Morell said about 
declaring the briefer in the room as a junior briefer, this is 
a 30-year CIA briefer. The woman who briefed the President is a 
30-year career staffer.
    Next----
    Mr. Morell. Sir?
    Mr. Zeldin. No, thank you. Please, it is my time now. You 
had your opportunity. So, we will cleanup a few things.
    Next, we are following what really was the Susan Rice 
version in her op-ed in The New York Times. That is that there 
was compelling evidence, there was a conclusion based on 
compelling evidence that Russia placed a bounty on U.S. service 
members and that the President was briefed. Now I do not know, 
Ms. Wallander, if your assumption that you come into this 
hearing is following the Susan Rice assumption. I do not know 
what you might disagree with of what Susan Rice wrote in her 
op-ed, but having known the rest of the facts and not playing 
along with story time here at this hearing, there are important 
facts that should be understood, so we could have a productive 
conversation.
    So, there was a PDB that was given in written form to the 
President of the United States. In that PDB, there was a 
concern expressed that is an appropriate topic of this 
discussion today and this hearing. In it was also a dissent. 
That 30-year career CIA briefer shows up at the briefing and 
chooses not to brief that information because she disagrees 
with it. So, the President was never told that in the briefing.
    Now I am having trouble playing along with ignoring the 
facts, to call it ``a junior briefer'' and ignore 30 years of 
service in the CIA. I have trouble playing along with the 
reality that there was some kind of a conclusion on this based 
on compelling evidence that there was not a dissent and the 
President was told this.
    So, with all that being said, with a couple of minutes I 
have left, first off, General Nicholson, I have a tremendous 
amount of respect for you. Thank you for your service to our 
country. We have spent multiple Christmas days in Afghanistan. 
You have sacrificed a ton for your country, and as you know, I 
have a tremendous amount of respect for you.
    And actually, it has been on those trips with you and your 
team where I learned a lot about Russian interests in 
Afghanistan and the way that they meddle with the Taliban, and 
otherwise. So, I know that you are a subject matter expert on 
it.
    I just want to hear your thoughts on the fact that there 
was classified information that was leaked to The New York 
Times and how that impacts the process.
    General Nicholson. [Audio malfunction.] Having said that, 
as you know from our conversations there--and thank you for 
your many visits to the theater and for checking on the troops 
and the dialog with us--we have been watching the Russians for 
some time and we are concerned about their behavior. And so, 
having this hearing, having this conversation, getting this up 
on the radar screen, I think is a form of pushback on Russian 
behavior.
    And this opportunism that the Russians have demonstrated in 
Afghanistan and elsewhere, in my experience militarily when we 
respond and we identify they are trying to exploit an 
opportunity and we respond effectively, that is one of the ways 
that we can cause him to look elsewhere, if nothing else, and 
to dial down on what they are doing.
    So, I thank the members for having this hearing and getting 
this on the screen. They will be watching this and they will 
know that we are watching them.
    Mr. Castro. Okay. Thank you, Mr. Zeldin.
    Mr. Zeldin. I guess
    [audio malfunction] does not want to answer the question.
    I appreciate it. Thank you.
    Mr. Castro. Thank you.
    And, Mr. Morell, I know you wanted to say something. Your 
words were directly addressed. If you want to make a quick 
response, that would be fine.
    Mr. Morell. Thank you, Mr. Chairman.
    Mr. Zeldin misrepresented my statement. I did not say she 
was a junior officer. I said she was the most junior officer in 
the room. That is a very significant difference.
    Mr. Castro. Okay. Thank you.
    All right. We are going to go to Mr. Lieu.
    Mr. Lieu. Thank you, Mr. Chair.
    And I want to thank all the panelists for being here today.
    I think it is very instructive to note what the White House 
has not denied. The White House has not denied that the CIA 
assessed that Russia paid bounties to the Taliban to kill U.S. 
troops. The White House has not denied that the CIA made this 
assessment with a medium level of confidence. The White House 
has not denied that this information was included in the 
President's Daily Brief in February.
    The main excuse from the White House is that Donald Trump 
was not orally briefed on this issue, but that excuse has now 
gone away because, for at least nearly 2 weeks, the President 
has seen the news coverage on this issue, first, coming out of 
The New York Times, and then, being confirmed by The Washington 
Post, by NBC, by The Wall Street Journal, and multiple other 
press outlets. And the President has yet to utter a single word 
condemning Vladimir Putin.
    But the President has found time to criticize NASCAR driver 
Bubba Wallace. The President has found time to play golf on 
numerous outings. What kind of message does that send to 
Vladimir Putin?
    And I have heard some of the strong comments from my 
Republican colleagues and I appreciate them, that Russia is not 
our friend. But those are just empty words if you cannot even 
condemn Donald Trump for not saying a single thing about Russia 
placing bounties to kill our troops.
    And so, Mr. Morell, I have some questions for you. You had 
said that, if intelligence had a medium level of confidence or 
higher that this was happening, you would expect the U.S. in a 
normal administration would have taken action right now, is 
that right?
    Mr. Morell. Yes, sir.
    Mr. Lieu. Okay. And I heard some of my Republican 
colleagues use a word, you know, ``verify'' or ``validate.'' 
That is not how intelligence works at all, right? You just have 
confidence levels. It is nearly impossible to verify or 
validate a fact. For example, when Obama sent in a strike to 
kill Osama bin Laden, no one was 100 percent sure that Osama 
bin Laden was there, isn't that right? You just have confidence 
levels in intelligence?
    Mr. Morell. Yes, sir, you never have certainty in 
intelligence.
    Mr. Lieu. And based on numerous non-denials from the White 
House, it is very clear this is not a hoax. And so, what I want 
to understand is--and this is for any of the panelists--what 
kind of message is this sending to Russia and Vladimir Putin 
when the President of the United States cannot still utter a 
single word condemning Russia, not just for the bounty program, 
but just for generally arming the Taliban, right? No one 
disputes that. And the President cannot even condemn that. So, 
what kind of message do you think, Panelists, that sends to 
Russia?
    Mr. Morell. So, I will jump in first here, Congressman. 
Vladimir Putin, one of his strategic tactics, or one of his 
tactics, is to divide us as a people, is to have us at each 
other's throat. So, he must be very pleased with the arguments 
we are having politically about this issue.
    Mr. Lieu. So, let me followup on that. I find it 
fascinating that so many Republicans are bending over backward 
to give Russia the benefit of the doubt. I do not understand 
that. I personally served on active duty in the United States 
military. It is very clear that Russia is not our friend and 
Putin is not our buddy. We should not be giving Russia the 
benefit of the doubt. We should be giving the CIA the benefit 
of the doubt.
    I also wanted to make another point, which is the 
Republicans are bringing up, for example, Soleimani and how 
there is also intelligence about him. Well, yes, and Democrats 
agreed there was a lot of intelligence on him and that he was a 
bad guy. That was never the dispute. Intelligence was never the 
dispute. The dispute was, was there appropriate use-of-force 
authorization to take him out? I believe there was not. And 
second, what was going to be the consequences if we did that?
    In this case, this is an issue regarding intelligence. The 
CIA has made this assessment, and the President of the United 
States still has not been able to condemn Vladimir Putin. I 
cannot understand that, and for Republicans to remain silent on 
this, you are rewarding Putin.
    And with that, I yield back.
    Mr. Castro. Thank you, Mr. Lieu.
    I will now go to Mr. Keating from Massachusetts.
    Mr. Keating. Thank you.
    I have a question for Dr. Wallander, but for the rest of 
the panel as well. When we look at what we do in response to 
Russia, we are always, first, looking at sanctions, and 
certainly sanctions, including individual sanctions, should be 
explored, particularly with some of the oligarchs, I believe. 
But the question is this: I would like your comments on how 
much more effective it is to work in concert with these 
responses, particularly with our European allies. And just this 
go-it-alone strategy, when we do get around and the President 
does get onboard, sometimes reluctantly, to these sanctions--I 
mean strengthening NATO, working harder and more visibly for 
Ukraine independence reform, working on energy issues. 
Financial transparency issues and money laundering issues are 
important as well. These are the things, we should take an 
across-the-board approach in terms of reacting to Russia's 
malign activities. And how important it is to work in concert, 
I believe. But can you reflect on your experience in the go-it-
alone versus an allied approach?
    Dr. Wallander. Well, thank you very much, sir.
    In order to be effective with economic or financial 
sanctions in the case of Russia, you, the United States, have 
to coordinate with Europe to be effective for a couple of 
reasons. One is the volume of trade between Russia and Europe 
far exceeds that of the United States. U.S. trade with Russia 
is something like 2 percent of our global trade. So, to have 
impact, you have to look at Europe.
    Second, a lot of Russian financial transactions end or go 
through Europe. So, if you do not coordinate with Europe on 
financial, banking, financial institution transactions, there 
are workarounds that the Russians are very clever. You know, I 
sometimes say, if they put as much energy into running a real 
market economy, their economy would be a lot more successful. 
They are really good at workarounds. And so, to get to do those 
workarounds without the United States coordinating with Europe, 
you are just not going to be effective.
    And the last point I would like to make is I agree with Mr. 
Brzezinski that we should be looking at, if you want impactful 
economic sanctions, that you should be looking at sectoral 
sanctions. You can only sanction the oligarchs so many times. 
Many of the oligarchs are actually not politically influential 
or even close to the Kremlin. So, for impact, sectoral 
sanctions are important and targeted sanctions on the defense 
and security elite that is so core to the Putin leadership. If 
you want to be effective, you need to think in terms of 
targeting those areas.
    Mr. Keating. And in terms of the Wagner Group, and you look 
at their activities in Crimea, Syria, now in Libya and parts of 
Africa, what theaters that we may not be looking at where you 
would be keeping a watchful eye on the Russians going forward?
    Dr. Wallander. Going forward, I think we need to look at 
Central Asia, for many of the reasons General Nicholson pointed 
to. I think that I am concerned also about that the Russian 
government can use the Wagner Group for deniable training of 
some countries in Europe or in the Middle East. And once they 
are there, they tend to have influence, and then, they tend not 
to play by the international rules of the game. So, I think 
beginning to treat the Wagner Group as more quasi than private 
would strengthen the ability of the United States to counter 
these kinds of destructive asymmetric operations.
    Mr. Keating. Last, in the hearings we had this week in our 
subcommittee, they stressed the importance, our witnesses, of 
not moving away from the option of dealing directly with the 
Russian people, giving them information. Many of Putin's 
activities are not well received in Russia. In fact, if they 
did know the truth, instead of what they are getting, it would 
become a domestic problem for him. Do you believe that is a 
very important approach we should take, too?
    Dr. Wallander. Well, Putin's disapproval ratings have been 
growing. His approval ratings have been falling as a 
combination of economic challenges and, also, the challenges of 
the COVID crisis in Russia. So, there is evidence that Russians 
do pay attention and do have views of their leadership. And 
there is also evidence that Russians have, although official 
media sources inside of Russia are constrained, Russians 
actually get their information from a wide variety of platforms 
that are available to them.
    Mr. Keating. My time has elapsed. I am sorry, Doctor. I 
yield back. But thank you so much for being here with us 
today----
    Dr. Wallander. Sure.
    Mr. Keating [continuing]. And to all our witnesses.
    I yield back.
    Ms. Stiles. Congressman Malinowski, we can turn to you, 
sir, if you want to begin chairing.
    Mr. Malinowski [presiding]. So, it is Mr. Phillips next.
    Mr. Phillips. Thank you, Mr. Chairman.
    And thank you to our witnesses.
    I will start with a few obvious truths. One of which is I 
am terribly disappointed that Secretary Pompeo once again 
chooses not to be with us, stonewalls our efforts to provide 
important oversight on some terribly important issues that we 
and the rest of the world face.
    I am terribly disturbed by Vladimir Putin's ongoing 
provocations and aggression, all with impunity. I am 
particularly disturbed and disgusted by the possibility that 
Russians provided bounties to the Taliban to kill American 
service men and women. I will not try to continue the 
litigation of whether it is true or not. We have done so.
    But I want to turn to a couple of questions. One of which 
is--perhaps, General Nicholson, if you might begin--is it even 
possible that the GRU operates independently of Vladimir Putin?
    General Nicholson. I will give you my perspective, with 
great respect for Director Morell and Dr. Wallander and Dr. 
Brzezinski. They understand the Russians extremely well.
    My perception, there is an almost feudal set of 
relationships inside Russia. On one level, you could view it 
that way. People like to deliver outcomes to the center, to the 
czar, if you will, or to Putin, that they think he will like, 
that will curry favor. So, there is a dimension to this where 
people will act independently on what they think the boss wants 
and deliver that to him. And so, I think that it is possible 
that there can be independent actors within this system doing 
things that others in the system might view as reckless or 
irresponsible.
    Mr. Phillips. Thank you, sir.
    Do any of our witnesses see it differently?
    Dr. Wallander. I agree exactly with General Nicholson's 
analysis. I would point out that the GRU has engaged in 
multiple operations that have been exposed and they have not 
been pulled back. And so, from that, I take it that, while 
those operations may not have been ordered, they may have been 
about pleasing the boss and about creative implementation of 
general directives, we, nonetheless, should hold the Russian 
leadership accountable because, if they did not like it, they 
did not stop it. So, therefore, they own it.
    Mr. Phillips. Well said. I couldn't agree more.
    Some of you have spoken, Director Morell, you spoke about 
Putin's greatest fear is his middle class in Russia turning 
against him. Mr. Brzezinski, you talked about the need for a 
strategy of disruption and creating uncertainty. I think we 
would all agree that, if we intend to do so--and we should--it 
must be in conjunction with our allies. And I would welcome 
perspectives from each of you in my remaining time relative to 
the State of affairs with our allies. Are we in a position 
right now with our relationships to do so? Do our allies trust 
us or are those relationships compromised and perhaps 
presenting a challenge to some cooperation in that respect?
    General Nicholson. I will jump in here, sir. Having led a 
41-nation coalition that was built around the core of NATO, I 
will tell you, having served in NATO multiple times, it is one 
of our most important sources of strength in the national 
security arena. And the protection, if you will, of that 
cohesion and that strength of the alliance is paramount for our 
national security. And I know we in uniform took that very 
seriously. Indeed, the whole is greater than the sum of the 
parts, if you will, especially when it comes to the legitimacy 
of our actions. It is not just adding up GDPs, adding up 
military capability, which is significant and gives us enormous 
strategic advantage over Russia. It is the legitimacy that 
comes with having 41 nations together in Afghanistan. That is 
an important source of strength.
    Mr. Phillips. But, sir, if I might ask, would you say that 
those relationships are less strong than they perhaps were as 
short as a few years ago?
    General Nicholson. Well, candidly, as a leader within NATO, 
I was concerned that some of the comments that we saw and some 
of the pressure being put on key allies within NATO risks our 
cohesion. Having said that, it is true that many of our allies 
have not met their obligation to spend 2 percent of the GDP on 
their defense, and their readiness has suffered because of it. 
So, it is not a black-or-white issue. I mean, the allies, given 
the threat posed by Russia, do need to invest more in their 
readiness and in their modernization. The way we go about it, 
though, I think needs to reinforce our cohesion, not
    [audio malfunction].
    Mr. Phillips. Thank you, sir.
    Director Morell, I would welcome your perspective on our 
allies, our relationships, and whether that has been eroded 
over the last few years.
    Mr. Morell. Sir, I have had many conversations with foreign 
officials who I used to deal with, and almost to a person, 
whether in Europe, the Middle East, or Asia, they are concerned 
about their relationship with the United States. And they tell 
me that, because of that, they need to hedge, and that that 
hedging includes increased conversations with both China and 
Russia. So, I hear that. I hear that almost constantly.
    Mr. Malinowski. Thank you.
    Mr. Phillips. Thank you, Mr. Chairman. I yield back.
    Mr. Malinowski. Thank you, Mr. Phillips.
    I am going to recognize myself at this point. And I wanted 
to start with, to go back to a pretty basic question to you, 
Mr. Morell. And that is, what is the standard for including a 
piece of information in the President's Daily Brief? It is more 
than just that the information is true or likely true; it has 
to be important, isn't that the case?
    Mr. Morell. Yes, sir, it has to be important to the 
national security of the United States of America.
    Mr. Malinowski. Right. So, if this information was included 
in the President's Daily Brief, that would mean that the 
intelligence community made a judgment that it was important 
enough for the President.
    Mr. Morell. Yes, sir.
    Mr. Malinowski. Is that a fair assessment?
    Mr. Morell. Yes, sir.
    Mr. Malinowski. And we do not actually know why the 
intelligence briefer chose not to orally brief. So, any of that 
is speculative at this point.
    Mr. Morell. Yes, sir.
    Mr. Malinowski. Okay. Now, when something is important and 
it comes to the White House, but there are gaps in the analysis 
or potentially differences of opinion about the level of 
confidence, then one of the things the White House can do is to 
go back to the intelligence community and ask for a deeper 
dive. And we know that in this case that did happen, that Mr. 
Ratcliffe produced a sense-of-the-community memorandum upon 
being asked by the White House. But what strikes me as odd 
about that is that it seems as if a White House, if a National 
Security Advisor felt a real desire to get to the bottom of a 
piece of information like this, would not he have asked for 
that deeper dive immediately, in this case several months ago 
when it was first brought to the attention of the White House?
    Mr. Morell. Sir, I would think so. I do not understand the 
timing in this case, but, yes, I would think so.
    Mr. Malinowski. Okay. And are you concerned that the timing 
might have been related to the media reports rather than to a 
sense of urgency to get to the bottom of the intelligence?
    Mr. Morell. Sir, I just do not know the timing. So, I 
cannot answer that.
    Mr. Malinowski. Understood.
    And let's get back to the more important question of the 
response here. Now we have heard from Secretary Pompeo--and we 
wish he were here to tell us in person--but we have heard from 
him that he has raised Russian support for the Taliban on 
several occasions with his counterpart--I assume Mr. Lavrov--in 
the Russian government. Ms. Wallander, knowing that, would you 
say that President Putin would take such expressions of concern 
seriously if they are only coming from the Secretary of State 
and they are never coming directly to him from the President of 
the United States?
    Dr. Wallander. One of the things that is clear is that the 
Russian leadership pays close attention to what it is hearing 
from different senior levels in the U.S. Government, and when 
they get mixed messages, they use that to their advantage and 
cherry-pick the messages they want to hear from the messages 
they do not want to hear. So, I think it does matter that if it 
is the case--and I do not know if it is the case--that they 
have not heard a consistent, clear, strong message on concern 
in this area from several senior leaders of the U.S. 
Government, they would read into that that they do not need to 
worry about it and it is not a strong U.S. expression of 
concern.
    Mr. Malinowski. And they do recognize the President speaks 
for the United States above all others. I mean, we do know--we 
do not know exactly what was discussed--but we do know, because 
it has been publicly reported, that President Trump has spoken 
to President Putin on the phone something like a half dozen 
times in the last couple of months. That, in and of itself, is 
a little bit odd or out of the ordinary, would not you say from 
your experience?
    Dr. Wallander. The frequency of calls isn't necessarily 
unusual. President Obama spoke frequently with Vladimir Putin 
during the escalation in the Ukraine crisis in order to be able 
to let him know we knew what was happening and what we were 
planning to do to counter Russian actions. So, the frequency 
itself might not be. It would depend on what the content of the 
message was.
    Mr. Malinowski. Right. But if Pompeo is saying, ``I am 
concerned about what you are doing in Afghanistan,'' and the 
President is saying, ``I would love to share intelligence with 
you on counterterrorism. I want to invite you to the G7. I want 
to have a good relationship with you, and can you believe this 
Russia hoax?'' and all of that stuff, how seriously do you 
think Mr. Putin would take any expressions of concern from the 
State Department?
    Dr. Wallander. If that were the content of the messages, 
that would be a very mixed message, and the expressions of 
concern from the State Department would not rise to the level 
of serious.
    Mr. Malinowski. Okay. Thank you so much.
    My time is up, and I would like to recognize Mr. Allred. 
Thank you.
    Mr. Allred. Well, thank you, Mr. Chairman.
    And I really want to thank our panel for their excellent 
testimony and your excellent written testimony.
    I think that many of my colleagues have covered very ably a 
lot of the ground that I wanted to discuss, but I want to begin 
by noting that I have not been privy to the intelligence around 
this incident. But I agree with Mr. Brzezinski that the fact 
that bounties are even plausibly in place on American service 
men and women shows that our policy toward Russia is, at the 
very least, completely ineffective at deterring their 
aggression. And we know, as General Nicholson has noted, that 
the Russians have provided arms and support to the Taliban that 
have been used against American service members. So, whether we 
accept this intelligence or not, or whether the President was 
briefed on this particular instance or not, the President and 
this administration are clearly on notice as to Russian 
intentions against us in Afghanistan and certainly may have 
American blood directly on their hands.
    Last November over Thanksgiving, I was in Afghanistan 
visiting our embassy, Bagram, went to some of our forward-
operating bases where our Rangers are training and working with 
the next generation of Afghani officers. And when I think about 
those young service members who are working with those young 
Afghans, and I think of our President repeatedly praising 
Vladimir Putin, offering ventilators, saying he believes Putin 
over our intelligence agencies, and, of course, trying to get 
them readmitted to the G7, among many other things that we 
could list, it is incomprehensible. And I can find no strategic 
goal in it. I have no rationale behind it. And so, I am left 
wondering, what could possibly be motivating these actions?
    But my role, and I think our role on this committee, is to 
try and inform policy and inform our constituents and inform 
the American people as to what we can do. And while this 
President may not act, we know that Congress has acted several 
times during this term to try to take steps, and we were 
willing to do more.
    And so, I do want to ask, what has worked for us in a 
multilateral and multinational approach in the past to check 
Russian aggression? What steps have worked, and are those 
mechanisms still effective? Is it necessary for us to find some 
other mechanisms? I will ask that to the entire panel, perhaps 
beginning with Dr. Wallander.
    Dr. Wallander. Thank you for your question.
    We do have some evidence of what is effective. In the 
summer of 2014, when Russia provided surface-to-air missiles to 
the so-called separatists in Ukraine and that missile was used 
to shoot down the Malaysian airliner No. 17, it was very 
quickly exposed publicly and the Europeans, in coordination 
with the United States, imposed significant sanctions on the 
Russian economy. And the Russians both withdrew those 
capabilities and stopped--they did not stop their intervention, 
but they stopped the escalation of delivery of equipment that 
they had been engaged in and pulled it back and went more 
covert and more deniable. And that affected their operational 
effectiveness.
    And so, they are sensitive to what we do and the costs we 
impose. Those costs vary by circumstance. I cannot tell you, I 
cannot lay out a map of what it would be in every circumstance. 
My colleagues have suggested some. We have talked about some. 
But I think the important answer for you is that we know that 
the Kremlin is cost-sensitive and does respond when we are 
clear and firm in our policies.
    Mr. Allred. Mr. Morell, do you want to add anything to 
that?
    Mr. Morell. No, I agree 100 percent.
    Mr. Allred. Mr. Brzezinski.
    Mr. Brzezinski. Sir, I would reiterate it this way: when we 
are committed to our values, that denies opportunity to 
autocrats like Putin trying to undercut political cohesion, to 
undercut the cohesion among our allies. It reduces his 
motivation to kind of push against liberal democracy and 
replace it with authoritarian nationalism. When we are 
steadfast in our military resolve, Putin will be more cautious. 
We have demonstrated that repeatedly. When we are committed to 
our allies and partners, when we do not abandon them in the 
field or withdraw our forces from their territories, Putin is 
less likely to push against them. And if we are steadfast in 
leveraging our economic power, Putin does not have any 
capability to match that, but we have to exercise it.
    Mr. Allred. Well, my time is up, but, General, thank you 
for your service and I am sorry we did not get a chance for you 
to weigh in. If you have anything you want to add, perhaps the 
chairman will allow you a few seconds.
    Mr. Malinowski. It is fine, if short. Do you have anything 
to add, sir?
    General Nicholson. Thank you, Chairman.
    I wanted to add that, you know, war is more like a 
wrestling match than a chess game. And so, while discussions of 
confidence levels and assessments are going on on the ground, 
leaders are taking actions immediately to protect our service 
members and to respond, and to fill in any gaps. If we do not 
know with confidence, why not? Well, let's try to cover that 
gap. So, I would say our teammates, our colleagues that are out 
there on the front lines right now, they are doing everything 
they can to protect our service members and they are adapting 
to this.
    The one thing I would add on responding is back to the 
power of the alliance. So, the legitimacy that comes with 41 
nations saying, hey, this is unacceptable; you do not threaten 
the U.S. and its coalition partners on the ground, that does 
have power and it shouldn't be underestimated.
    Thank you for the question, sir.
    Mr. Allred. Thank you.
    Mr. Malinowski. Thank you. Well said.
    I now recognize Mr. Levin of Michigan.
    Mr. Levin. Thank you so much, Mr. Chairman. And I want to 
thank the ranking member as well for this really important 
hearing.
    And I want to thank all the panelists. We go through a lot 
of hearings. You all are really outstanding witnesses and I 
appreciate it.
    I want to start with you, Mr. Morell. You said in your 
testimony that, in your experience, quote, ``Even if it was 
only vaguely clear that the Russians might be paying bounties 
to Taliban-associated militants for killing American soldiers, 
that information would have made its way to the highest levels 
of the U.S. Government, including the President, before the 
analysts concluded their work.'' Would you tell us why 
information like this would have been run up the chains so 
quickly, even if it was only vaguely clear?
    Mr. Morell. Because of its significance, sir. We are 
talking about bounties on the heads of American soldiers, and 
the significant strategic step forward that would suggest for 
Putin's activities against us.
    Mr. Levin. Thank you.
    Mr. Morell. I worked with a number of National Security 
Advisors in my time. I do not think a single one of them would 
not have told the President this information when the National 
Security Advisor first heard it, when they first read the raw 
intelligence.
    Mr. Levin. And regardless of politics, obviously. We are 
all patriots, right? I mean, it is just about our country's 
interests?
    Mr. Morell. Yes, sir.
    Mr. Levin. And protecting her? Okay.
    So, Secretary of Defense Esper is actually testifying 
before another committee right now, and I understand that he 
said, and I am quoting, ``To the best of my recollection, I 
have not received a briefing that included the word bounty,'' 
end quote. He, then, said that he was briefed on intelligence 
reports that Russia made, quote, ``payments,'' end quote, to 
militants.
    If this happened during your tenure, is there any chance 
that this would not have been brought to the Secretary of 
Defense's attention? And what would the Secretary likely to 
have done, knowing this, that payments were made in this way to 
the militants to attack our soldiers?
    Mr. Morell. Two thoughts, sir. One is the Secretary of 
Defense is a recipient of the PDB. So, if it was in the PDB, 
the Secretary of Defense should have read it or should have 
been briefed on it.
    Second is the Secretary of Defense has, of all the Cabinet 
members, the most interest here in making sure that this is run 
to ground, in making sure that his or her soldiers are well 
cared for and protected. So, I think they would speak the 
loudest for something to be done here.
    Mr. Levin. Thank you.
    General Nicholson, I want to ask you a question, sir, 
about--and I do not mean to be naive, but I really do not 
know--you have led our troops at every level and our coalition 
partners. When news like this happens, do our troops find out 
about it, that this idea that there may have been bounties on 
them and that the President isn't doing anything about it? I 
mean, do they hear about this?
    Mr. Brzezinski. Thank you. Thank you, sir, for asking.
    Information that has to do with what we would call force 
protection is extremely important. It comes right to the top of 
the list, because casualties, friendly casualties, be they 
coalition or Americans, are going to affect the political will 
to sustain the effort. So, there is a military reason you do 
that. And then, of course, there is the moral obligation you 
have to all the members of your team to protect them. So, this 
is critically important.
    I think our service members understand that their chain of 
command, I mean starting with their leaders on the ground, are 
committed to their protection. And to be honest, studies of 
military units, and all that, it is usually your nuclear group 
that is the most important and your immediate. And I think 
there is no question in the minds of those service members that 
their immediate group and their leadership, General Miller in 
Afghanistan, are going to be doing everything they can to 
ensure their protection.
    Mr. Levin. Everything they can. And then, if they have a 
question, if it seems in publicly available information that 
way up the chain that someone may not be looking out for them, 
I mean, I just worry about the morale of our troops. It just 
concerns me. Again, not to do with politics, but just, I mean, 
they are out there defending our country, for God's sake.
    General Nicholson. Well, I couldn't agree with you more, 
sir, in terms of our internal strength and cohesion is one of 
our greatest sources of strength and effectiveness on the 
battlefield, and the unwavering commitment. And all of the 
members, I know all of you have been enormous supporters of our 
troops in the field. We deeply appreciate that.
    So, sure, it does cause some head scratching from time to 
time when you see things like this happen.
    Mr. Malinowski. Thank you, sir. Thank you, Mr. Levin.
    Mr. Levin. And thanks for your service.
    Thank you. I yield, Mr. Chairman.
    Mr. Malinowski. Thank you, Congressman Levin.
    And I would now like to recognize the member of our 
committee who in a past life might have been the person 
analyzing and briefing this information, Congresswoman 
Spanberger.
    Ms. Spanberger. Not to make light--thank you, Mr. 
Malinowski--of a prior comment, but at the time that I left the 
agency I was far too junior to have the role of briefing the 
President of the United States, not to mention I was on the 
operations side of the house.
    [Laughter.]
    But I am grateful to all of our witnesses for being here 
today, for the breadth of information, knowledge, and 
commitment to service and our Nation that you have demonstrated 
throughout your careers and continue to demonstrate.
    As a Member of Congress, one of my very top priorities is 
keeping our service members safe. I am personally furious over 
the allegations that Russia seems to have further endangered 
our men and women in uniform serving in Afghanistan by putting 
bounties on their heads with Taliban-linked militants, asking 
them to target them.
    I have been grateful to hear strong denunciations among 
many of my colleagues during this hearing, but I would urge 
many of them to go one step further. I would love to hear them 
call upon the White House to do the same, to stand up to 
Russia.
    And this gets me to my first question, which I will direct 
at you, General Nicholson. You have raised concerns about 
Russia and its support for the Taliban for a number of years. 
And then, separately, we have seen that President Trump has 
held off in condemning Putin in a whole variety of ways. He has 
offered him intelligence. He has publicly sided with him over 
the intelligence community. He has advocated for Russia to join 
the G8. He has repeatedly given him praise. And then, most 
notably, he hasn't issued what I think is an important and 
necessary step, which is, if this is true, Russia will see the 
full force and strength of the United States across the board 
politically, economically, and wherever else that may take us 
for us to protect our U.S. service members. That is what I 
would like to see.
    But my question for you, General, is, when we see these 
patterns, and patterns of nefarious behavior by Putin and 
Russian, but, then, also, patterns in the administration that 
isn't standing up to escalatory behavior, either directed at 
our country or other Western allies, what do you think that 
that portrays to Russia? And what sort of calculation do you 
anticipate or do you assess that they might be making, given 
the pattern of behavior that they are put up against?
    General Nicholson. Thank you, ma'am. Thanks for your 
service and thanks for your focus on this issue.
    I do think, clearly, Putin and Russia are targeting the 
cohesion of NATO. And so, many of the actions they have taken, 
not just in this regard, are targeted at that. And if they can 
erode the cohesion of NATO, if they can convince just one 
member, one voting member, to not invoke Article 5 if they were 
to threaten an ally, clearly, these are the kinds of scenarios 
we have spent a lot of time looking at during my multiple 
assignments in NATO as a flag officer.
    So, I do think they are trying to erode the cohesion, and 
they are doing it in multiple ways, as the other witnesses have 
spoken about eloquently in terms of the information operations, 
in particular, and we have seen this in America. So, I do think 
this is something we need to be concerned about.
    And the ways we can reinforce cohesion in NATO are 
leveraging the system. I will give you a quick example. I do 
not mean to take up too much time. But when you look at the 
threats initially to the eastern States of the alliance after 
the invasion of Ukraine, and the actions that NATO has taken 
then, it took a little while. It is a large alliance. But we 
now have alliance troops stationed in the East. We have large 
exercises in the East. We have a regular rotation of forces to 
the East. Those nations in the East have improved their 
readiness and posture, new weapon systems, et cetera.
    It tends to take longer in an alliance. Everything is 
harder in an alliance. But the alliance, at the end of the day, 
is, in my view, the effective mechanism to respond, if that 
helps.
    Ms. Spanberger. Thank you.
    And in your testimony, you have noted that mistakes and 
miscalculations can, in fact, lead to war and they can be 
particularly dangerous when it comes to our relationship with 
Russia. What does it tell you, looking at these allegations, 
that Russia is willing to risk potentially? And I am going to 
caveat it heavily like a former intelligence officer would. If 
these things are true, what would that demonstrate to you that 
they might be willing to risk, given what some of their goals 
are, among them, disrupting the cohesion of NATO?
    General Nicholson. And I will throw in the same caveat on 
``if this is true,'' but I would say, one, it is a 
miscalculation and a mistake. And so, No. 1, that we would not 
find out about it. I mean it is clumsy execution. It is poor 
execution. Their tradecraft was pretty bad if we have received 
these reports. If they trusted criminal proxies, and those 
criminal proxies dealt with Taliban criminal proxies, well, 
they have essentially entrusted the foreign policy of Russia to 
criminal proxies in Afghanistan. And that was a real 
miscalculation and very sloppy on their part.
    What it would say, though, is that they made a mistake, in 
my view. So, there was a miscalculation that they could pull 
this off and a mistake in that they have risked that there are 
strategic consequences for this essentially tactical action.
    And the final point I would make is, when Vladimir Putin's 
approval ratings are the lowest they have been in 20 years, do 
you really want to risk economic sanctions against Russia over 
something like this? What is the cost-benefit analysis? And 
that leads me to believe, again, poorly conceived, sloppily 
executed, if it turns out to be true.
    Ms. Spanberger. Thank you very much, General Nicholson. I 
appreciate your comments.
    And I think reflecting back on the patterns of behavior, I 
think there is an element here that is unfortunate, in that 
they might have also made the judgment that they would not 
taste the level of wrath or retaliation that they would face 
under any other administration that learned of allegations of 
bounties being put on the heads of U.S. service members.
    I yield back. Thank you, Mr. Chairman.
    Mr. Malinowski. Thank you so much.
    And then, finally, I would like to recognize Representative 
Houlahan for what I believe will be our last round of 
questions.
    Ms. Houlahan. Thanks, and I do apologize for being late. I 
was at the hearing that Representative Levin was referring to 
where Secretary Esper mentioned that he had not heard of 
bounties, but had heard of payments for the lives of soldiers 
and sailors.
    And I just wanted, for the record, to read the definition 
of a bounty, which is ``a sum paid for killing or capturing a 
person.'' And so, I do not think that we should be getting 
ourselves caught up in semantics.
    I also really want to make sure that I say for the record 
that, were this intelligence, uncertain as it appears to be, 
about another malign actor such as North Korea or Iran, we 
would not be having this conversation about trying to fall over 
ourselves to explain why this is either not real or actionable 
intelligence or not something to worry about.
    And so, I would love to know, also, from Dr. Wallander or 
Mr. Morell, if you would not mind just telling me a little bit 
about what is in it for Russia to offer a bounty on lives of 
soldiers and sailors? Why would they want to potentially 
escalate tensions between the U.S. and Russia? Did they expect 
to be caught or found out? If you could kind of try and 
characterize for me, and for others, why would this happen and 
why is this, in fact, an escalation?
    Dr. Wallander. Well, thank you for your question. It is a 
great question, and it cuts to the heart of the discussions 
about Russia and what it is doing and why it is a threat to the 
United States.
    It is an escalation because it is an act of the Russian, if 
true, it is an act and a policy of the Russian Ministry of 
Defense and political leadership to have American soldiers 
killed. Normally, the United States and Russia seek to 
deconflict in theaters, like in Syria. Even during the cold 
war, the Soviet Union and the United States, when they were 
involved in conflicts in the same region, took great care to 
not kill one another's soldiers because of the potential 
escalatory implications. So, that is why it is significant.
    Why Russia would want to have American soldiers killed in 
Afghanistan I still think comes back to wanting to help drive 
us out, to complicate things. They do not want us there. They 
do not want NATO there. I know it is more than NATO, General 
Nicholson, but in the Russian frame it is NATO.
    And then, why do it this way? Because they want to exploit 
the deniability, the asymmetric operations. They want to have 
the benefit of the action without the costs. And they have been 
doing this for going on a decade, not at this level of 
seriousness, but this is part of a pattern that we have seen 
for quite some time.
    Ms. Houlahan. Thank you.
    I was wondering, Mr. Morell, if you have something to add 
to that as well.
    Mr. Morell. I was just going to add, to go back for just 1 
second to Ms. Spanberger's and General Nicholson's conversation 
about whether this is in Putin's strategic interests or not, 
what I think we have seen over a long period of time is 
Vladimir Putin make decisions that are not in the strategic 
interests of the Russian State. Over and over again, he has 
done things that has made it difficult for his country to have 
any relations with the West, integrate the Russian economy in 
any way with the European economies. And I think because of his 
actions, Russia is destined to continue to degrade as a State.
    So, he is not thinking about the strategic interests of the 
Russian State. He is thinking about a very narrow set of 
interests, about power in the world, being seen as a great 
power, and being seen as a great leader. It is not about, in 
his mind, what is in the interest of Russia.
    Ms. Houlahan. Thanks.
    And with the last minute of my time, I would like to kind 
of end with General Nicholson. Your testimony that you gave 
ended with what I think is very true. You said, ``Our long war 
in Afghanistan will only end at the peace table.'' So, how do 
you think that these allegations, if they are true would impact 
the prospect of U.S. peace with the Taliban?
    General Nicholson. Thank you, ma'am.
    Unfortunately, they have a negative impact because it 
indicates the Taliban are not acting in good faith. So, the 
Russians offered, but if the Taliban accepted, if this is 
validated, then it would indicate that they are acting against 
the spirit, certainly, and perhaps even the letter, of the 
agreement that they signed with the United States a few months 
ago.
    So, I think getting that process on track and having the 
Taliban deliver on the conditions that they are to have 
delivered at this point--and that is severing ties with Al 
Qaeda, that is initiating the dialog with the Afghan government 
and representatives of the Afghan people--it is a sustained 
reduction in violence, and that has not happened, either.
    So, I think this construct that we have come up with, it is 
not perfect, but it is the best one we have. It does give us an 
avenue forward. Like many peace processes, it is kind of, you 
know, one step forward, two steps back, one step sideways. But 
I think we need to have the stamina to see it through.
    But there is a condition built in that, before we progress 
to the next level of reductions, they need to meet certain 
conditions. So, I think if we stick to our agreement and hold 
the Taliban to it, it gives us our best opportunity to move 
forward.
    Ms. Houlahan. Thank you, General.
    And thank you so much for my time. Apologies again for 
being tardy, and I yield back.
    Mr. Malinowski. Thank you so much. Thanks to all the 
members and our witnesses.
    I think this was a very, very interesting and helpful 
discussion. There is obviously a lot that we do not know. There 
are some things that we do know, but cannot discuss in a public 
forum such as this. But I have heard enough to reinforce my 
concerns about what seems to be just a breakdown in the 
national security decisionmaking process. I mean, we do know 
that the President was briefed, but he does not read his 
briefings. We know that the Secretary of Defense and the 
National Security Advisor knew about this, but they, too, did 
not choose to take the initiative to ask the intelligence 
community to get to the bottom of it.
    And while all this was going on, all of the messages that 
we were sending, certainly from the White House to President 
Putin, were positive about the relationship, whether the G7 or 
pulling out of Germany or intelligence-sharing, or all of the 
other things that we have heard about. That does not strike me 
as the way any normal administration would react to information 
like this, even if there was not 100 percent certainty. And all 
of you, I think, from your different perspectives, have helped 
to reinforce that conclusion.
    So, I am grateful to all of you for your decades of service 
and for sharing your insights with us today, and to all of the 
members for their excellent questions.
    And with that, the hearing is adjourned.
    [Whereupon, at 3:53 p.m., the committee was adjourned.]

                            APPENDIX
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                            
                            
                    STATEMENT FOR THE RECORD
                    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                    

         RESPONSES TO QUESTIONS SUMITTED FOR THE RECORD
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
         


                                 <all>
</pre></body></html>
